No. 19In the

Supreme Court of the United States
Sauk Prairie Conservation Alliance,
Petitioner,
v.
United States Department of the Interior;
David Bernhardt, in his official capacity as Acting
Secretary of the U.S. Department of the Interior;
National Park Service; Emily W. Murphy,
in her official capacity as Administrator of the U.S.
General Services Administration; and
the State of Wisconsin,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Brian H. Potts
Counsel of Record
Jacob E. A ronson
Danielle S. Grant-Keane
Mary N. Beall
Perkins Coie LLP
33 East Main Street, Suite 201
Madison, WI 53703
(608) 663-7460
bpotts@perkinscoie.com
Counsel for Petitioner

-i-

QUESTIONS PRESENTED
Did the Seventh Circuit err in concluding
that the National Park Service’s approval of
military helicopter training exercises on property
conveyed for the purpose of recreation was not
“arbitrary and capricious” where such use was not
subject to a “determin[ation]” by the Secretary of
the Interior that such use is “necessary to
safeguard the interests of the Government”
pursuant
to
the
Federal
Property
and
Administrative Services Act?
Is the arbitrary and capricious standard of
review appropriate for an agency’s threshold
determination,
pursuant
to
the
National
Environmental Policy Act (42 U.S.C. § 4321 et
seq.), of whether an action is categorically excluded
from preparation of an environmental impact
statement and environmental assessment?

-ii-

RULE 29.6 DISCLOSURE STATEMENT
There are no parent corporations or publicly
held companies involved in this case.

-iiiRELATED CASES STATEMENT
Sauk Prairie Conservation Alliance v. United States
Department of the Interior, et al., No. 3:17-cv-00035,
U.S. District Court for the Western District of
Wisconsin. Order Denying Preliminary Injunction
dated June 26, 2017. Judgment entered May 3,
2018.
Sauk Prairie Conservation Alliance v. United States
Department of the Interior, et al., No. 18-2213, U.S.
Court of Appeals for the Seventh Circuit.
Judgment entered December 12, 2019.

-ivTABLE OF CONTENTS

Page
QUESTIONS PRESENTED .................................... i
RULE 29.6 DISCLOSURE STATEMENT ............. ii
RELATED CASES STATEMENT ......................... iii
TABLE OF CONTENTS ........................................ iv
TABLE OF AUTHORITIES ................................. vii
PETITION FOR A WRIT OF CERTIORARI ......... 1
OPINIONS BELOW................................................ 1
JURISDICTION ...................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .......................... 2
STATEMENT OF THE CASE ................................ 4
I.
PROCEDURAL HISTORY ................ 4
II.
STATEMENT OF RELEVANT
FACTS ................................................ 6
REASONS FOR GRANTING THE PETITION ... 10
I.
THE SEVENTH CIRCUIT ERRED
IN CONCLUDING THAT THE
NATIONAL PARK SERVICE’S
APPROVAL OF MILITARY
HELICOPTER TRAINING
EXERCISES ON PROPERTY
CONVEYED SOLELY FOR
RECREATIONAL PURPOSES
WAS PERMISSIBLE ....................... 12

-vTABLE OF CONTENTS
(continued)
A.

II.

Page

The Secretary of the Interior
Never “Determine[d]” That a
Reservation Permitting
Helicopter Training
Exercises Is “Necessary to
Safeguard the Interests of
the Government” ................... 14
B.
Contrary to the Seventh
Circuit’s Opinion, the
Alliance Preserved This
Argument in the
Proceedings Below. ............... 18
THE SEVENTH CIRCUIT
SHOULD NOT HAVE RELIED ON
A DISFAVORED “ARBITRARY
AND CAPRICIOUS” STANDARD
WHEN REVIEWING NPS’S
CATEGORICAL EXCLUSION
DETERMINATION ......................... 20
A.
Application of an Arbitrary
and Capricious Standard Is
Disfavored Considering
NEPA Is Purely
Procedural and Should Be
Reviewed Under 8 U.S.C.
§ 706(2)(D) ............................. 27

-viTABLE OF CONTENTS
(continued)
B.

Page

Whether a Categorical
Exclusion Applies in This
Case Is a Question of Law
That Should Be Reviewed
De Novo ................................. 31
CONCLUSION ...................................................... 33
APPENDIX A: Opinion of the United States
Court of Appeals for the
Seventh Circuit, dated
December 12, 2019 ..................... 1a
APPENDIX B: Opinion and Order from the
United States District Court
for the Western District of
Wisconsin, dated May 4, 2018 . 42a
APPENDIX C: Order Denying Preliminary
Injunction from the United
States District Court for the
Western District of Wisconsin,
dated June 26, 2017 ................. 83a

-viiTABLE OF AUTHORITIES
CASES
Abbott v. Abbott,
560 U.S. 1 (2010)..........................................14, 15
Allen v. Sec’y of Health & Human Servs.,
837 F.2d 267 (6th Cir. 1988) ............................ 15
Campanale & Sons, Inc. v. Evans,
311 F.3d 109 (1st Cir. 2002) ........................22, 24
Ctr. for Biological Diversity v. U.S. Fish and
Wildlife Serv.,
202 F. Supp. 2d 594 (W.D. Tex. 2002) ............. 29
Ctr. for Biological Diversity v. U.S. Forest
Serv.,
349 F.3d 1157 (9th Cir. 2003)........................... 28
Cty. of Trinity v. Andrus,
438 F. Supp. 1368 (E.D. Cal. 1977) .................. 30
Goos v. I.C.C.,
911 F.2d 1283 (8th Cir. 1990)......................28, 29
Highway J Citizens Grp. v. Mineta,
349 F.3d 938 (7th Cir. 2003) .................23, 25, 26
Idaho Sporting Cong., Inc. v. Alexander,
222 F.3d 562 (9th Cir. 2000) .......................21, 23

-viiiTABLE OF AUTHORITIES
(continued)

Page(s)

Jones v. Gordon,
792 F.2d 821 (9th Cir. 1986) ............................ 29
Kleppe v. Sierra Club,
427 U.S. 390 (1976)..........................22, 24, 25, 26
Marsh v. Oregon Natural Resources Council,
490 U.S. 360 (1989)......................................23, 31
Maryland-Nat’l Capital Park & Planning
Comm’n v. U.S. Postal Serv.,
487 F.2d 1029 (D.C. Cir. 1973) ......................... 24
Mass. v. Watt,
716 F.2d 946 (1st Cir. 1983) ............................. 28
Medellin v. Texas,
552 U.S. 491 (2008)........................................... 14
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v.
State Farm Mut. Auto. Ins. Co.,
463 U.S. 29 (1983)..................................13, 17, 18
N.W. Bypass Grp. v. U.S. Army Corps of Eng’rs,
470 F. Supp. 2d 30 (D.N.H. 2007) .................... 28

-ixTABLE OF AUTHORITIES
(continued)

Page(s)

Nat. Res. Def. Council v. U.S. Forest Serv.,
421 F.3d 797 (9th Cir. 2005) ............................ 29
Nat’l Audubon Soc’y v. Dep’t of Navy,
422 F.3d 174 (4th Cir. 2005) ............................ 25
Nat’l Audubon Soc’y v. Hoffman,
132 F.3d 7 (2d. Cir. 1997) ................................. 27
Northcoast Envtl. Ctr. v. Glickman,
136 F.3d 660 (9th Cir. 1998) ............................ 23
People ex rel. Madigan v. Dixon-Marquette
Cement, Inc.,
343 Ill. App. 3d 163, 796 N.E.2d 205
(2003) ................................................................. 15
Piedmont Envtl. Council v. F.E.R.C.,
558 F.3d 304 (4th Cir. 2009) ............................ 24
Robertson v. Methow Valley Citizens Council,
490 U.S. 332 (1989)................................12, 26, 28
Sabine River Auth. v. U.S. Dep’t of Interior,
951 F.2d 669 (5th Cir. 1992) ............................ 29

-xTABLE OF AUTHORITIES
(continued)

Page(s)

San Luis & Delta-Mendota Water Auth. v.
Jewell,
747 F.3d 581 (9th Cir. 2014) ............................ 23
Sauk Prairie Conservation All. v. U.S. Dep’t
of the Interior,
320 F. Supp. 3d 1013 (W.D. Wis. 2018) ............. 1
Sauk Prairie Conservation All. v. U.S. Dep’t
of the Interior,
944 F.3d 644 (7th Cir. 2019) .............................. 1
Sauk Prairie Conservation All. v. U.S. Dep’t
of the Interior,
No. 17-CV-35 JDP, 2017 WL 2773718
(W.D. Wis. June 26, 2017) .................................. 1
Save Our Ten Acres v. Kreger,
472 F.2d 463 (5th Cir. 1973) ............................ 30
Save Our Wetlands v. Julich,
No. Civ.A.01–3472, 2002 WL 59401 (E.D.
La. Jan. 15, 2002) ............................................. 27
Sierra Club v. Bosworth,
510 F.3d 1016 (9th Cir. 2007)................21, 22, 27

-xiTABLE OF AUTHORITIES
(continued)

Page(s)

Sierra Club v. Marsh,
872 F.2d 497 (1st Cir. 1989) ............................. 28
Vermont Yankee Nuclear Power Corp. v.
NRDC,
435 U.S. 519 (1978)......................................24, 27
STATUTES
5 U.S.C. § 706 .................................................. passim
28 U.S.C. § 1254 ....................................................... 1
40 U.S.C. § 550 ................................................ passim
42 U.S.C. § 4332 .............................................. passim
OTHER AUTHORITIES
40 C.F.R. § 1501.4 ........................................... passim
40 C.F.R. § 1507.3 .................................................... 3
40 C.F.R. § 1508 ..............................................3, 4, 19

-xiiTABLE OF AUTHORITIES
(continued)

Page(s)

James M. Koshland, The Scope of the
Program EIS Requirement: The Need for
a Coherent Judicial Approach, 30 STAN.
L. REV. 767, 802 (1978) ..................................... 23
National Park Service, Federal Lands to
Parks Program, About Us Page at
https://www.nps.gov/ncrc/programs/flp/flp
_abt_us.html (last visited March 6, 2020) ....... 10
Remedies, 35 HARV. ENVTL. L. REV. 205, 212
n. 34 (2011) ....................................................... 22
DANIEL R. MANDELKER ET AL., NEPA
LAW AND LITIG. §§ 8:6, 10:17 (2019) ................. 22

-1PETITION FOR A WRIT OF CERTIORARI
Petitioner
Sauk
Prairie
Conservation
Alliance respectfully petitions for a writ of
certiorari to review the judgment of the United
States Court of Appeals for the Seventh Circuit
entered in this case on December 12, 2019. See
Sauk Prairie Conservation All. v. U.S. Dep’t of the
Interior, 944 F.3d 664 (7th Cir. 2019).
OPINIONS BELOW
The December 12, 2019 opinion of the
Seventh Circuit Court of Appeals is reported as
Sauk Prairie Conservation All. v. U.S. Dep’t of the
Interior, 944 F.3d 644 (7th Cir. 2019) and is
reprinted at Appendix A. The May 4, 2018 opinion
of the district court is reported as Sauk Prairie
Conservation All. v. U.S. Dep’t of the Interior, 320
F. Supp. 3d 1013 (W.D. Wis. 2018) and is reprinted
at Appendix B. The district court order denying the
Alliance’s motion for a preliminary injunction
(Sauk Prairie Conservation All. v. U.S. Dep’t of the
Interior, No. 17-CV-35 JDP, 2017 WL 2773718
(W.D. Wis. June 26, 2017)) is unreported and is
reprinted as Appendix C.
JURISDICTION
The judgment of the Seventh Circuit Court of
Appeals was entered on December 12, 2019. This
Court’s jurisdiction is invoked under 28 U.S.C.
§ 1254(1).

-2CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
40 U.S.C. § 550(b)(1) provides that “[s]ubject
to disapproval by the Administrator of General
Services within 30 days after notice of a proposed
action to be taken under this section, except for
personal property transferred pursuant to section
549 of this title, the official specified in paragraph
(2) shall determine and enforce compliance with the
terms, conditions, reservations, and restrictions
contained in an instrument by which a transfer
under this section is made. The official shall
reform, correct, or amend the instrument if
necessary to correct the instrument or to conform
the transfer to the requirements of law. The official
shall grant a release from any term, condition,
reservation or restriction contained in the
instrument, and shall convey, quitclaim, or release
to the transferee (or other eligible user) any right or
interest reserved to the Federal Government by the
instrument, if the official determines that the
property no longer serves the purpose for which it
was transferred or that a release, conveyance, or
quitclaim deed will not prevent accomplishment of
that purpose. The release, conveyance, or quitclaim
deed may be made subject to terms and conditions
that the official considers necessary to protect or
advance the interests of the Government.”
40 U.S.C. § 550(b)(2)(C) provides that “[t]he
official referred to in paragraph (1) is . . . the
Secretary of the Interior, for property transferred
under subsection (e) for public park or recreation
area use.”
40 U.S.C. § 550(e)(4)(B) provides that deeds
of conveyance for recreational properties “may
contain additional terms, reservations, restrictions,

-3and conditions the Secretary of the Interior
determines are necessary to safeguard the interests
of the Government.”
42 U.S.C. § 4332(C) directs agencies of the
federal government, “to the fullest extent possible,”
to “include in every recommendation or report on
proposals for legislation and other major Federal
actions significantly affecting the quality of the
human environment, a detailed statement by the
responsible official on-- (i) the environmental
impact of the proposed action, (ii) any adverse
environmental effects which cannot be avoided
should the proposal be implemented, (iii)
alternatives to the proposed action . . . .”
40 C.F.R. § 1508.4 reads: “Categorical
exclusion means a category of actions which do not
individually or cumulatively have a significant
effect on the human environment and which have
been found to have no such effect in procedures
adopted by a Federal agency in implementation of
these regulations (§ 1507.3) and for which,
therefore, neither an environmental assessment
nor an environmental impact statement is
required.”
5 U.S.C. § 706(2) reads: “The reviewing court
shall— . . . (2) hold unlawful and set aside agency
action, findings, and conclusions found to be— (A)
arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law; . . . (D)
without observance of procedure required by law.”

-4STATEMENT OF THE CASE
I.

PROCEDURAL HISTORY

Federal jurisdiction arose via Petitioner’s
invocation of three federal statutes in a lawsuit to
halt certain high-impact activities, including dog
training with firearms, off-road motorcycle riding,
and military helicopter drills, from occurring on
land the National Park Service donated to the
Wisconsin Department of Natural Resources. App.
A at 2a. The first of these statutes is the Federal
Property and Administrative Services Act (FPASA
or Property Act), which controls the terms of deeds
issued through the Federal Lands to Parks
Program (40 U.S.C. § 550). The statute requires the
federal government to enforce the terms of any
deed it issues. Id. The Property Act also requires
that, with some qualifications, any land conveyed
through the program must be conveyed solely for
park and recreational purposes. Id. Second,
Petitioner invoked the National Environmental
Policy Act (NEPA) (42 U.S.C. § 4321 et seq.). NEPA
requires a federal agency to prepare an
environmental impact statement (EIS) for all
“proposals for . . . major Federal actions
significantly affecting the quality of the human
environment.” 42 U.S.C. § 4332(2)(C). An agency
can decide not to prepare an EIS or a shorter
environmental analysis (EA) if it relies on a
“categorical exclusion” to determine that its action
is categorically excluded from NEPA. 40 C.F.R.
§ 1508.4.
Third,
Petitioner
invoked
the
Administrative Procedure Act (APA). 5 U.S.C.
§ 706. The APA requires that courts “hold unlawful
and set aside agency action . . . found to be
arbitrary, capricious, an abuse of discretion, or

-5otherwise not in accordance with law.”
§ 706(2)(A).

Id. at

Petitioner brought suit to enjoin the
aforementioned activities when the National Park
Service approved them as a last-minute revision to
the use plan in the final stages of the property
transferal process. Petitioner contends that the
National Park Service’s late approval of these uses
was arbitrary and capricious and in violation of the
Property Act. Petitioner also contends that the
National Park Service (NPS) wrongly relied on a
categorical exclusion in failing to conduct either an
EA or an EIS, in violation of NEPA.
The district court granted the Defendants’
motion for summary judgment, holding that the
Defendants did not violate the APA, NEPA, or
FPASA. App. B. The court concluded that
Petitioner “failed to show either that the National
Park Service (NPS) lacked authority under the
FPASA to approve the proposed uses for the
recreation area or that it was arbitrary and
capricious for NPS to conclude under NEPA that
the proposed uses would have no more than a
minimal impact on the environment.” App B. at 2a.
The Seventh Circuit affirmed, holding that NPS’s
approval of these uses did not violate the Property
Act because (1) dog training and off-road
motorcycle riding, although not mentioned in the
State’s initial application, are both recreational
uses and therefore consistent with the original
purposes of the park; and (2) while military
helicopter training is “obviously not recreational,”
the National Park Service reserved the right to
continue the activity, consistent with the Property
Act. App. A at 3a. As to the NEPA claims, the
Seventh Circuit scrutinized NPS’s actions under a
deferential arbitrary and capricious standard. The

-6court determined that the agency reasonably
concluded that its approval of dog training and offroad motorcycle riding fell within a categorical
exclusion to NEPA’s requirements—one for
amendments to actions with no or only minimal
impact—such that the agency need not conduct an
environmental assessment of these additional uses
on the park. App. A at 3-4a. Petitioner now asks
this Court to review the Seventh Circuit’s decision.
II.

STATEMENT OF RELEVANT FACTS

This case arises from the National Park
Service’s donation of more than 3,000 acres of land
in central Wisconsin to the state’s Department of
Natural Resources, now known as the Sauk Prairie
State Recreation Area (the “Area” or “SPRA”). AR
3876.1 The purpose of the donation was to turn a
former munitions plant into a state park designed
for various recreational uses. AR 3869-70. Starting
in
1997,
numerous
federal
and
state
administrations worked collaboratively to come up
with a plan regarding how to repurpose these
thousands of acres in Sauk County, Wisconsin. AR
3869. The Wisconsin Department of Natural
Resources
(“WDNR”),
General
Services
Administration (“GSA”), and National Park Service
(“NPS”)—after consultation with the Sauk County
Board of Supervisors, the Ho-Chunk Nation, local
municipalities, and countless members of the
public—agreed that the property’s best uses were
1 The required Appendix bound with this brief is cited
as “App __.” Documents in the District Court docket (W.D.
Wis., Case No. 17-cv-35 are cited as “Dist. Ct. Doc. No.___.”
Documents in the Seventh Circuit docket (7th Cir., Case No.
18-2213) are cited as “Cir. Doc. No.__.” The administrative
record (see Dist. Ct. Doc. Nos. 41-43) is cited as “AR ___.”

-7conservation, education, and low-impact recreation,
such as hiking, biking, fishing, horseback riding,
and hunting. App. B at 45a; AR 1175-76. These
federal and state agencies worked together for more
than a decade, culminating in the creation of a fullblown environmental impact statement, to transfer
the property from the federal government to the
WDNR, the Ho-Chunk Nation, and the U.S.
Department of Agriculture’s Dairy Forage Research
Center.
Id.
(describing
the
2003
state
environmental impact statement focused on low
and medium intensity uses); AR 1607-13. All
parties agreed in writing at the time that WDNR’s
portion of the property would be managed
cooperatively and would only be used for lowimpact recreation and conservation. App. B at 4647a.
In 2004, WDNR submitted an application to
acquire portions of the property through the
Federal Lands to Parks Program, which is
administered by NPS pursuant to the Property Act.
AR 1614–1634 (original application); AR 1640–1661
(amended application). The application contained a
Program of Utilization (“POU”) in which WDNR
described its proposed uses for the property. AR
1650–1653. WDNR’s POU included only the
following uses: “hiking, picnicking, primitive
camping, Lake Wisconsin access and viewing,
savanna and grassland restoration, environmental
education and cultural/historical interpretation.”
AR 1650. The POU additionally stated: “Many
groups with varying interests in Badger share a
common goal with the WDNR to convert it to a
recreational property with low impact recreation
(hiking, picnicking, primitive camping) prairie,
savanna and grassland restoration, environmental
education and cultural/historical interpretation,
with the potential for an education center.” AR

-81651. In 2005, NPS sent a letter to GSA approving
WDNR’s application to receive the lands through
the Federal Lands to Parks Program, requesting
assignment of the property for conveyance to
WDNR, and stating that “[t]he DNR will develop
and use the property as described in the Program of
Utilization.” AR 1663.
But then, in 2011, a new Wisconsin
gubernatorial administration took over after all of
the prior federal and state administrations’
decisions had been made and finalized. Despite
decades of careful consideration and analysis from
federal, local, state, and tribal representatives,
local business representatives, local landowners,
and the general public, this new administration
decided it wanted to use the property for higherimpact uses, such as off-road motorcycle riding, dog
training with guns, and helicopter training.
Beginning in July 2012, WDNR released a Regional
& Property Analysis that, for the first time in the
history of the planning process, proposed “nontraditional outdoor recreation uses” such as
“rocketeering, shooting ranges, geocaching, dog
parks, paintball . . . and other recreation activities
not typically found on Department Lands.” AR
2176. WDNR then issued its “Preliminary Vision
and Goal Statements and Three Draft Conceptual
Alternatives” document in July 2013, which
similarly included several high-impact uses, such
as a shooting range and motorized recreation
opportunities. AR 2361. WDNR’s 2015 Draft
Master Plan for the property also included
proposals for these high-impact uses that had not
been vetted in the original impact assessment. See
generally AR 2989-3164 (2015 Draft Master Plan
and Environmental Impact Statement).

-9Because these new uses had not been
considered in the environmental impact statement
conducted back in 2003 and were not included in
the POU, NPS initially pushed back, determining
that the proposed uses were not in accordance with
the POU and notifying WDNR that it would need to
apply for an amendment and consider numerous
environmental impacts consistent with NEPA. AR
3405, 3407. Instead, the WDNR ignored the NPS’s
correspondence and issued its 2016 Draft Master
Plan & Final Environmental Impact Statement
authorizing dual-sport motorcycle riding and dog
training. It also authorized military helicopter
training. The reservation for military helicopter use
was only in the deed for Parcel VI (the landfill area
where helicopters are allowed to land). The deeds
for all the other parcels (i.e., most of the park) do
not include a reservation, but helicopters are
allowed to fly as low as 25 or 80 feet over those
areas. AR 3894-3911, 3977, 4166. Notwithstanding
the WDNR’s failure to heed the NPS’s prior
admonitions, NPS informed WDNR that it would
nonetheless consider the WDNR’s Final 2016
Master Plan as an amendment to the POU and
categorically exclude it from environmental
analysis via an exclusion for “changes or
amendments to an approved plan, when such
changes would cause no or only minimal
environmental impact.” App. A at 9a. Petitioner
sued soon after.
Overall, Petitioner has contended that
without a legislative change to the Property Act, it
is too late for WDNR, GSA, and NPS to switch
course and unilaterally approve these contested
uses. And even if it were not too late and GSA and
NPS could go back and redo the property transfer
approvals that occurred more than ten years ago,
NPS and GSA would have to conduct a full-blown

-10environmental impact statement to analyze these
new high-impact activities.

REASONS FOR GRANTING THE PETITION
This Petition raises important questions as
to which uses are allowed on federal property
disposed of pursuant to the Federal Lands to Parks
Program and which standard of review should
apply to review of an agency’s decision to apply a
categorical exclusion under NEPA.
According to the NPS’s website, over 1,575
properties covering approximately 178,000 acres
have been transferred to state and local
governments for parks and recreation areas under
the Property Act since the program's inception in
1949. 2 Yet, to the Alliance’s knowledge, the
decisions in this case are the only federal court
decisions interpreting the Property Act. The lower
court’s decisions will therefore have an outsized
influence over how the Federal Lands to Parks
Program is administered going forward.
In other words, the lower courts’ decisions in
this case are not just about the specific uses that
will occur at this property in Wisconsin. They are
about certainty in all of NPS’s property planning. If
WDNR and NPS can simply switch course about
this property’s use - and use it for non-recreational
purposes - more than a decade after the original
2See National Park Service, Federal Lands to Parks
Program,
About
Us
Page
at
https://www.nps.gov/ncrc/programs/flp/flp_abt_us.html (last
visited March 6, 2020).

-11use decisions were made and finalized, without
doing any environmental impact analysis, then
what prevents an NPS property owner like WDNR
from turning this or any other property in the NPS
program into an amusement park or a protected
wilderness that no one is allowed to access at all?
What prevents NPS, in other actions, from
conducting no independent analysis and applying a
categorical exclusion to NEPA in every case?
This is precisely why the safeguards in the
Property Act and NEPA exist: to ensure that
property decisions are not made on a willy-nilly
basis, to provide certainty to the public about the
uses that will occur, and to adequately plan and
budget for the uses of the property on a long-term
basis.
This is a case of administrative overreach,
ignorance of procedure, and a failure of the
judiciary to check and balance the inadequacies of
federal and state agencies. It involves the scope of
permissible determinations under the Federal
Property and Administrative Services Act and an
improper judicial reliance on the APA’s “arbitrary
and capricious” standard to avoid holding agencies
accountable for failing to comply with Congress’s
“broad national commitment[s]” under the National
Environmental Protection Act. Robertson v. Methow
Valley Citizens Council, 490 U.S. 332, 348 (1989).

I.

-12THE SEVENTH CIRCUIT ERRED IN
CONCLUDING THAT THE NATIONAL
PARK SERVICE’S APPROVAL OF
MILITARY HELICOPTER TRAINING
EXERCISES ON PROPERTY
CONVEYED SOLELY FOR
RECREATIONAL PURPOSES WAS
PERMISSIBLE

In the section of the Property Act titled
“Property for Use as a Public Park or Recreation
Area,” the Act provides that the Administrator of
the General Services Administration “may assign
to the Secretary of the Interior for disposal surplus
real property . . . that the Secretary recommends as
needed for use as a public park or recreation area.”
40 U.S. Code § 550(e)(1) (emphasis added). Later in
that same section, the Property Act provides that
the “deed of conveyance” of any such surplus real
property “shall provide that all of the property be
used and maintained for the purpose for which it
was conveyed in perpetuity . . . and may contain
additional terms, reservations, restrictions, and
conditions the Secretary of the Interior determines
are necessary to safeguard the interests of the
Government.” Id. § 550(e)(4) (emphasis added).
Military helicopter training is not a
recreational use. That fact is not in dispute.
Although the Sauk Prairie Recreation Area was
conveyed to the State of Wisconsin exclusively for
recreational uses, the Seventh Circuit nonetheless
found that the National Park Service did not
violate the Property Act in approving military
helicopter training exercises on the property. App.
A at 19-25a, 40a; 40 U.S.C. § 550(e); AR 4565
(Quitclaim deed for Parcels R3 and V1 stating that
“the Property shall be used and maintained
exclusively for public park or public recreation

-13purposes for which it was conveyed in perpetuity”).
The Seventh Circuit concluded that the helicopter
training was permissible “because the Department
[of the Interior] concluded, in light of a request by
the Army, that the provision was necessary to
safeguard the nation’s interests in training
members of the National Guard.” App. A at 21-22a.
However, the Seventh Circuit’s decision gets this
critical issue of first impression wrong.
The Administrative Procedure Act requires
reviewing courts to “hold unlawful and set aside
agency action” which is “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance
with law.” 5 U.S.C. § 706(2). Here, the Secretary of
the Interior made no conclusion or determination to
justify the inclusion of helicopter training as a
permissible use on the property, which is
fundamentally “arbitrary and capricious.” Motor
Vehicle Mfrs. Ass'n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 48 (1983) (finding a
decision by the National Highway Traffic Safety
Administration “arbitrary and capricious” where
the agency’s analysis “was nonexistent” and lacked
“findings” or “analysis . . . to justify the choice
made”).
The
Seventh
Circuit’s
decision
misrepresented the actual evidence in the record
and conflated the statutorily mandated actors
without reference to any controlling law.
Without judicial intervention, the NPS will
now be able to proceed carte blanche in conveying
properties subject to the Property Act, and states
and other municipalities that have obtained
property will be able to do with it whatever they
please.

A.

-14The Secretary of the Interior
Never “Determine[d]” That a
Reservation Permitting
Helicopter Training Exercises Is
“Necessary to Safeguard the
Interests of the Government”

As described above, the Property Act
provides that deeds of conveyance for recreational
properties “may contain additional terms,
reservations, restrictions, and conditions the
Secretary of the Interior determines are necessary to
safeguard the interests of the Government.” 40
U.S.C. § 550(e)(4)(B) (emphasis added). However,
there is no document in the administrative record
indicating that the Secretary of the Interior made
this statutorily required determination. The only
“determination” the NPS could produce in the
entire record was in the form of an internal staff
email from NPS representative Elyse LaForest to
Andrew Tittler of the Department of the Interior,
which asked: “[a]re you okay with my previous
explanation that the helicopter use is a condition of
assignment by the Army??? [sic] I’m trying to get
this off for signature.” The Department’s response:
“OK.”. AR4365; see n. 3, infra, and accompanying
text.
The Secretary never acted or expressly
delegated authority to act. Such inaction does not
permit the inclusion of additional terms which
allegedly “safeguard” the Government’s interests.
40 U.S.C. § 550(e)(4)(B); see App. A at 22a.
“The interpretation of a statute[] begins with
its text.” Abbott v. Abbott, 560 U.S. 1, 10 (2010)
(quoting Medellin v. Texas, 552 U.S. 491, 506
(2008)). The Property Act states that the Secretary
of the Interior “shall determine and enforce

-15compliance
with
the
terms,
conditions,
reservations, and restrictions contained in an
instrument by which [the] transfer . . . is made.” 40
U.S.C. § 550(b)(1)(emphasis added); 40 U.S.C. §
550(b)(2)(c). The deed of conveyance for such a
transfer may contain additional terms and
reservations, but only if “the Secretary of the
Interior determines [those terms] are necessary to
safeguard the interests of the Government.” 40
U.S.C. § 550(e)(4)(B) (emphasis added). Thus, the
Secretary of the Interior is the primary actor in
enforcing the deed of conveyance and amending the
terms where necessary. Nowhere in the Property
Act does the statute permit the Secretary of the
Interior to delegate its responsibilities to another
individual or entity. It is the Secretary of the
Interior who must make such a determination.
That the Secretary of the Interior must
“determine” additional terms are necessary implies
at least involvement from the Secretary, if not a
level of analysis regarding the necessity of
including such terms. An internal email from NPS
to a low-level Department staff member cannot
constitute a determination of the Secretary. This
Court, for example, has interpreted “determine” to
mean “to fix conclusively or authoritatively” and “to
set bounds or limits to.” Abbott, 560 U.S. at 11; see
also Allen v. Sec'y of Health & Human Servs., 837
F.2d 267, 270 (6th Cir. 1988). Other courts have
interpreted the term to mean “to explain or state
the exact meaning of words and phrases; to state
explicitly; to limit; to determine essential qualities
of; to determine the precise signification of.” People
ex rel. Madigan v. Dixon-Marquette Cement, Inc.,
343 Ill. App. 3d 163, 173, 796 N.E.2d 205, 212
(2003). Interpreting “determine” as such, the
Property Act requires an affirmative statement or
explanation from the Secretary of the Interior

-16regarding the decision to include additional terms;
it is not sufficient that the Government merely has
interests at play surrounding the conveyance.
Additional terms beyond those in the original deed
must be “necessary to safeguard the interests of the
Government.” 40 U.S.C. § 550(e)(4)(B).
In this case, the record is devoid of any
formal communications or even emails from the
Secretary of the Interior regarding National Guard
helicopter training in the Area. In support of its
improper finding that the Secretary made the
requisite “determination,” the Seventh Circuit
alludes to three impertinent email chains,3 none of
which came from the Secretary, none of which
constituted
a
statutorily
mandated
“determination,” and none of which addressed
whether helicopter usage was “necessary to
safeguard the interests of the Government.” 40
U.S.C. § 550(e)(4)(B). Even considering the sole
email which includes anyone from the Department
of the Interior, such communication could hardly be
considered a Department response, let alone a
“determination.” AR 4365.
3 Although the Seventh Circuit did not provide
citations to these emails, the court likely cited to (1) a
December 9, 2016 email from a General Services
Administration representative to Elyse LaForest of the
National Park Service stating that the helicopter provision
was “a requirement imposed by [the] Army” (AR 4363), (2) a
December 8, 2016 email between Andrew Tittler of the
Department of the Interior and Elyse LaForest of the
National Park Service stating that “helicopter use is a
condition of assignment by the Army” (AR 4365), and (3) a
December 2, 2016 email from Elyse LaForest to a GSA
representative stating that NPS needs “word from [the]
Army” before it could “do anything” (AR 4168).

-17This Court has held that agencies “must
examine the relevant data and articulate a
satisfactory explanation for [] action[s],” which
“include[es] a ‘rational connection between the facts
found and the choice made.’” Motor Vehicle Mfrs.
Ass’n, 463 U.S. at 43. Further, “an agency rule
would be arbitrary and capricious if the agency . . .
entirely failed to consider an important aspect of
the problem.” Id. But here, the Secretary of the
Interior has failed to consider any aspect of the
problem. “An agency must cogently explain why it
has exercised its discretion in a given manner,” and
this Court has previously deemed agency inaction
“arbitrary and capricious” where agency analysis is
“nonexistent.” Id. at 48.
In fact, the few communications from the
Department that are present in the record
demonstrate that the Department’s own employees
expressed disbelief that helicopter training would
constitute a permissible use on the property. 4 In
another email from the same Andrew Tittler dated
just two days before the email cited above, he states
that the Army’s helicopter practice “. . . seems like
4 See, e.g., AR 2831 (marked-up version of the 2015
draft master plan with two large exclamation points next to
the paragraph describing helicopter training); AR 3179
(noting that helicopter use is “[n]ot recreation” and
questioning whether NPS could allow it); AR 3319 (noting
that “WDNR must come to an agreement for phasing out the
guard’s use of the property (as it is not a recreational use)
within a reasonable time frame”); AR 3412 (“the use of the
area by the National Guard for training with helicopters or
any other purpose (except training exercises which assist the
DNR with cleanup or development of the site) is not a
recreational use and is not allowable under the requirements
of the FLP program”).

-18a problem to me. If the area is being used for rotary
wing aviation training, in what way is it still being
used for public park purposes? I don’t think this
comports with the Act and its intent.” AR 4175
(emphasis added). If the Department staff could
simply
make
the
statutorily
permitted
determination that helicopter training is “necessary
to safeguard the interests of the Government,” why
question the legality of such use under the Act? The
“arbitrary and capricious” standard holds a narrow
scope of review, and a court is “not to substitute its
judgment for that of the agency.” Motor Vehicle
Mfrs. Ass’n, 463 U.S. at 43. Thus, the Seventh
Circuit could not possibly have concluded that the
Department of the Interior made an explicit
reservation for helicopter usage consistent with the
Property Act’s requirements.
B.

Contrary to the Seventh Circuit’s
Opinion, the Alliance Preserved
This Argument in the Proceedings
Below.

The Seventh Circuit also concludes that the
Alliance did not preserve this argument in the
district court. But this is false. Because there are
no documents in the record to suggest that the
Secretary of the Interior “determine[d]” that
helicopter usage was a “necessary” term “to
safeguard the interests of the Government,” the
Alliance did not affirmatively raise this issue in its
original Brief in Support of its Motion for Summary
Judgment. But then in response, for the first time,
the federal Defendants argued, without any
substantiation, that they did “not need to meet the
‘public park and recreation’ standard” as the
Department is authorized “to include ‘additional
terms, reservations, restrictions[,] and conditions
the Secretary of the Interior determines are

-19necessary to safeguard the interests of the
Government” in their Opposition to Plaintiff’s
Motion for Summary Judgment. Dist. Ct. Dkt. No.
3:17-cv-00035, ECF No. 63 at 11. Federal
Defendants did not—and could not—cite to any
alleged analysis or determination from the
Department of the Interior as evidence. The
Alliance responded immediately in its Reply Brief
in Support of Its Motion for Summary Judgment
and on appeal, arguing that this position
contradicts several prior statements made by the
Federal Defendants as cited above and does not
excuse compliance with the Property Act and the
Federal Lands to Parks Program. Dist. Ct. Dkt. No.
3:17-cv-00035, ECF No. 67 at 2-4; App. Ct. Dkt. No.
18-2213, ECF No. 22 at 9-12.
In sum, this Court should grant the
Alliance’s Petition in order to rectify the Seventh
Circuit’s mistaken waiver holding, the NPS’s and
the Department’s gross administrative overreach,
and to provide clarity on the appropriate
administrative procedures for drafting and
approving deeds of conveyance for federal transfers
of property. Because there have not been any other
cases interpreting the Property Act, and the Act
covers approximately 1,575 properties and 178,000
acres, the Seventh Circuit’s erroneous decision will
have wide-ranging national impacts if it is left in
place.

II.

-20THE SEVENTH CIRCUIT SHOULD NOT
HAVE RELIED ON A DISFAVORED
“ARBITRARY AND CAPRICIOUS”
STANDARD WHEN REVIEWING NPS’S
CATEGORICAL EXCLUSION
DETERMINATION

NEPA requires a federal agency to prepare
an EIS for all “proposals for . . . major Federal
actions significantly affecting the quality of the
human environment.” 42 U.S.C. § 4332(2)(C). To
determine whether an EIS is required because an
agency action will “significantly” affect the
environment, an agency can prepare an EA, which
is a shorter, much less detailed version of an EIS.
App. A at 26a. An agency must prepare an EIS or
an EA unless it relies on a “categorical exclusion” to
determine that its action is categorically excluded
from NEPA. 40 C.F.R. § 1508.4.
Here, NPS relied on a categorical exclusion,
and as such, failed to conduct an EA or an EIS.
Specifically, NPS relied on a categorical exclusion
in its own handbook that applied to “[c]hanges or
amendments to an approved plan, when such
changes would cause no or only minimal
environmental impact.” App. B at 50a (emphasis
added). 5 To conclude that the exclusion applied,
NPS:
[R]el[ied] almost exclusively on the [state]
DNR’s environmental impact statement. The
National Park Service itself prepared only a
short 13-page screening form in which it
5 The Seventh Circuit questioned the circular nature
of this exclusion. App. A at 27-28a.

-21checked a few boxes and included a few lines
of brisk explanation. Its final conclusions
rested almost entirely on conclusions already
made by the state environmental agency.
Id. at 29a. Of note, the Seventh Circuit’s 33page opinion in this case was longer than NPS’s 13page conclusion that no environmental impact
analysis was necessary.
At issue now is whether this was
appropriate. 6 That is, whether NPS may fail to
conduct its own analysis in determining that a
categorical exclusion applies such that it need not
carry out its procedural mandate under NEPA. 40
C.F.R. § 1501.4. The lower court has decided that it
may; this Court should determine that the proper
standard of review in such a case is whether such a
decision was in “observance of procedure required
6 While Petitioner has not directly raised this
standard of review issue until now, it would have been futile
to do so below considering the 7th Circuit’s previous reliance
on the “arbitrary and capricious” standard in NEPA litigation.
Highway J Citizens Grp. v. Mineta, 349 F.3d 938, 952 (7th
Cir. 2003) (“The APA instructs courts to set aside agency
action only if it is ‘arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with the law.’ 5
U.S.C. § 706(2)(A).”). Petitioner has also previously cited
Sierra Club v. Bosworth, 510 F.3d 1016, 1026 (9th Cir. 2007),
a decision which in addition to applying an arbitrary and
capricious standard of review, explains that “when an agency
has taken action without observance of the procedure
required by law, that action will be set aside.” (citing Idaho
Sporting Cong., Inc. v. Alexander, 222 F.3d 562, 567-68 (9th
Cir. 2000)).

-22by law.” 5 U.S.C. § 706(2)(D); App. A at 29a.
Application of 5 U.S.C. § 706(2)(D) would occur
under a limited but exacting de novo standard.
Campanale & Sons, Inc. v. Evans, 311 F.3d 109,
116 (1st Cir. 2002). At a minimum, the Seventh
Circuit should have used a standard of
reasonableness.
This Court has not decided what standard
applies to review of a federal agency’s decision to
employ a categorical exclusion. Because the
Seventh Circuit has given broad deference to an
agency’s interpretation of its own categorical
exclusion standard, the Court has now paved the
way for federal agencies to apply no independent
analysis before applying a categorical exclusion to
federal actions that may have an environmental
impact. This method of review allows the agency to
avoid the procedures of NEPA entirely and fails to
fulfill the goals of NEPA that require agencies to
take a “hard look” at the environmental
consequences of their actions to “the fullest extent
possible.” 42 U.S.C. § 4332; Kleppe v. Sierra Club,
427 U.S. 390, 410 n. 21 (1976).
There is “deep ambiguity” as to the
standards of review that govern NEPA litigation.7
The Supreme Court has ruled that an arbitrary and
capricious review should apply to factual questions
and to the decision not to prepare an EIS after
completion of an EA, but it “has not yet decided
whether this standard applies when courts review
7
Daniel Mach, Rules Without Reasons: The
Diminishing Role of Statutory Policy and Equitable Discretion
in the Law of NEPA Remedies, 35 HARV. ENVTL. L. REV. 205,
212 n. 34 (2011); DANIEL R. MANDELKER ET AL., NEPA LAW
AND LITIG. § 8:6 (2019).

-23the adequacy of an impact statement” (DANIEL R.
MANDELKER ET AL., NEPA LAW AND LITIG. § 10:17
(2019) (citing Marsh v. Oregon Natural Resources
Council, 490 U.S. 360 (1989)), nor has it decided
what standard applies when courts review the
decision whether to rely on a categorical exclusion.
Some courts, including the Seventh Circuit,
have reviewed various NEPA questions under the
“arbitrary and capricious” standard of 5 U.S.C. §
706(2)(A). Highway J. Citizens Group v. Mineta,
349 F.3d 938, 952-53 (7th Cir. 2003). Courts outside
of the Seventh Circuit have, however, applied
standards other than “arbitrary and capricious”
when conducting various parts of NEPA-based
review. See Sierra Club v. Bosworth, 510 F.3d
1016, 1023 (9th Cir. 2007) (citing to Section
706(2)(A) but also stating: “When an agency has
taken action without observance of the procedure
required by law, that action will be set aside.”);
Idaho Sporting Congress, Inc. v. Alexander, 222
F.3d 562, 566 (9th Cir.2000); San Luis & DeltaMendota Water Auth. v. Jewell, 747 F.3d 581, 641
(9th Cir. 2014) (citing Northcoast Envtl. Ctr. v.
Glickman, 136 F.3d 660, 667 n.46 (9th Cir. 1998)
(“We hold the less deferential standard of
‘reasonableness’ applies to threshold agency
decisions that certain activities are not subject to
NEPA's procedures.”)) And see Piedmont Envtl.
Council v. F.E.R.C., 558 F.3d 304, 315 (4th Cir.
2009) (“Thus, according to FERC, neither an EA
nor an EIS was required. FERC's determination is
reviewed
for
reasonableness
under
the
circumstances.”)
Courts historically were split between a
“vigorous de novo” review under a “rule of reason”
approach and a narrower “arbitrary and capricious”
standard. James M. Koshland, The Scope of the

-24Program EIS Requirement: The Need for a Coherent
Judicial Approach, 30 STAN. L. REV. 767, 802 (1978)
(outlining the circuit split between the two
standards). They have since shifted to a more
lopsided split between the reasonableness approach
and the deferential arbitrary and capricious
approach. However, this “split” is not clear or
binary, and in fact the jurisprudence of NEPA is a
conflation of various standards applied at different
times and in different ways, leading to confusion as
to what standards of review should apply where
and questions regarding when the review should
involve (among other issues) analysis of whether
the question is factual or legal and substantive or
procedural. As the questions at play in this matter
are legal and procedural, the proper standard of
review should not be “arbitrary and capricious.”
Instead, compliance with procedures required by
law should be conducted under a narrow de novo
standard of review, which determines whether
statutorily prescribed procedures have been
followed. Campanale, 311 F.3d at 116. This
analysis is not properly conducted under Section
702(2)(A), which demands an arbitrary and
capricious standard, but under Section 702(2)(D),
which adequately accounts for whether NEPA’s
“essentially procedural” mandates are conformed
with. Vermont Yankee Nuclear Power Corp. v.
NRDC, 435 U.S. 519, 558 (1978) (describing the
requirements of NEPA as “essentially procedural.”).
Under any standard, judicial review in
NEPA litigation is heightened by the requirement
that courts must take a “hard look” at the
environmental problems at play, as opposed to
relying on bald conclusions. Maryland-Nat’l Capital
Park & Planning Comm’n v. U.S. Postal Serv., 487
F.2d 1029, 1040 (D.C. Cir. 1973); and see Kleppe,
427 U.S. at 410 n. 21. “Hard looks” require a

-25“searching and careful inquiry into the facts” and
that courts “must take a holistic view of what the
agency has done to assess environmental impact.”
Nat’l Audubon Soc’y v. Dep’t of Navy, 422 F.3d 174,
185-86 (4th Cir. 2005)
The Seventh Circuit’s application of the
“arbitrary and capricious” standard results from a
brief citation to Highway J. Citizens Group v.
Mineta, 349 F.3d 938, 952-53 (7th Cir. 2003)
(“arbitrary and capricious review prohibits a court
from ‘substitut[ing] its judgment for that of the
agency as to the environmental consequences of its
actions’”). However, the lower court too quickly
reached for this standard of review as Highway J.
is not comparable. Highway J did not consider a
categorical exclusion, but rather found that federal
and state agencies needed not supplement a
thorough environmental assessment with an
environmental impact statement. 8 Id. at 960.
Highway J’s standard of review is for that reason
factually and legally distinct from the question of
whether a categorical exclusion may be employed to
avoid not only an impact statement, but an
environmental assessment as well, and as a result,
NEPA altogether. 40 C.F.R. § 1501.4. Extrapolating
the use of Highway J’s broad and deferential
standard out to the procedural and legal question of
whether an agency may apply a categorical
8 This standard is the same as that previously held by
the Supreme Court. See Dep’t of Transp. v. Pub. Citizen, 541
U.S. 752, 763 (2004) (“An agency's decision not to prepare an
EIS can be set aside only upon a showing that it was
‘arbitrary, capricious, an abuse of discretion, or otherwise not
in accordance with law.’” 5 U.S.C. § 706(2)(A). See also Marsh,
490 U.S. at 375–76; Kleppe, 427 U.S. at 412).

-26exclusion without conducting its own review is
improper. It is this broad and confused application
of the arbitrary and capricious standard in the
NEPA context that has led to a proliferation of
agency deference and general confusion about
which standards to apply in which scenarios,
considering courts must also take a hard look at
NEPA compliance. Kleppe, 427 U.S. at 410 n. 21.
Thus, application of a categorical exclusion
sidesteps NEPA’s mandate that the agency
“carefully consider” “detailed information”
regarding environmental impacts and apply
its procedural requirements “to the fullest
extent possible.” 42 U.S.C. § 4332. And see
Robertson, 490 U.S. at 348. In failing to
follow NEPA, the agency fails to participate
in Congress’s “broad national commitment to
protecting and promoting environmental
quality.” Id.
Rather than the scenario analyzed in
Highway J, this case concerns the purely
procedural requirements of NEPA, and therefore
should be analyzed under § 706(2)(D) for whether
the National Park Service complied with the
procedures required by law. 40 C.F.R. § 1501.4. At
a minimum, the Court should have applied a less
deferential standard such as one of reasonableness
or an at times de novo review.

A.

-27Application of an Arbitrary and
Capricious Standard Is
Disfavored Considering NEPA Is
Purely Procedural and Should Be
Reviewed Under 8 U.S.C.
§ 706(2)(D)

The National Environmental Policy Act
(“NEPA”) is “a purely procedural statute.” Save Our
Wetlands v. Julich, No. Civ.A.01–3472, 2002 WL
59401, at *3 (E.D. La. Jan. 15, 2002). Because
NEPA is purely procedural, review of decisions
related to compliance with NEPA’s procedures
should be conducted under the provision of the APA
under which a reviewing court shall hold unlawful
or set aside agency action, findings, and conclusions
found to be without observance of procedure
required by law. 5 U.S.C. § 706(2)(D). Courts have
and do enforce this provision in the NEPA context.
See Sierra Club v. Bosworth, 510 F.3d 1016, 1023
(9th Cir. 2007) (citing to Section 706(2)(A) but also
stating: “When an agency has taken action without
observance of the procedure required by law, that
action will be set aside.”). Review under this
provision is warranted considering NEPA is purely
procedural. Vermont Yankee Nuclear Power Corp.,
435 U.S. at 558 (describing the requirements of
NEPA as “essentially procedural.”); Nat'l Audubon
Soc’y v. Hoffman, 132 F.3d 7, 12 (2d. Cir. 1997)
(“[B]ecause NEPA provides a procedural framework
... courts are responsible for ensuring that agencies
comply with the statutory duty imposed on them by
Congress.”).
The chiefly procedural provisions of NEPA
require that federal agencies examine “to the
fullest extent possible” the environmental effects of
major federal actions. 42 U.S.C. § 4332. This is
accomplished through the following of a particular

-28procedure that involves the analysis of information,
culminating in the release of an EIS and ensuring a
detailed
examination
of
the
potential
environmental effects of an action that has taken
place. 40 C.F.R. § 1501.4; and see Robertson, 490
U.S. at 351 (NEPA prohibits uninformed agency
action). NEPA “does not mandate particular
results, but instead prescribes only a process to
ensure that federal agencies consider the
environmental consequences of particular actions.”
Goos v. I.C.C., 911 F.2d 1283, 1293 (8th Cir. 1990)
(citing Robertson, 109 S.Ct. at 1846). Its focus is to
ensure “that the agency, in reaching its decision,
will have available and will carefully consider
detailed
information
concerning
significant
environmental impacts.” Robertson, 490 U.S. at
349.
Yet, that focus is denied where agencies
forgo the independent gathering of information by
which it can determine whether it need assess
these impacts. Thus, “when a decision to which
NEPA obligations attach is made without the
informed environmental consideration that NEPA
requires, the harm that NEPA intends to prevent
has been suffered.” N.W. Bypass Grp. v. U.S. Army
Corps of Eng’rs, 470 F. Supp. 2d 30, 64 (D.N.H.
2007) (citing Mass. v. Watt, 716 F.2d 946, 952 (1st
Cir. 1983) and Sierra Club v. Marsh, 872 F.2d 497,
500 (1st Cir. 1989)). When federal agencies apply
circular exclusions to avoid the procedural
requirements of NEPA that they examine
environmental impact “to the fullest extent
possible,” the harm that NEPA intends to prevent
has been suffered. Id. Such a decision, one to ignore
NEPA’s “essentially procedural” mandate, should
be reviewable by the courts without heightened
deference. The proper standard is to review such
decisions as to whether they were made without

-29observance of procedure required by law. 8 U.S.C.
706(2)(D). Review under this standard is not
foreign to NEPA litigation, but is an underused line
of precedent frequently overlooked due to the
confusion regarding EAs versus EISs and an over
willingness of courts to apply the arbitrary and
capricious standard. Nat. Res. Def. Council v. U.S.
Forest Serv., 421 F.3d 797, 810 n. 27 (9th Cir. 2005)
(Because the statute is procedural in nature, we
“will set aside agency actions that are adopted
‘without observance of procedure required by
law.’”), (quoting 5 U.S.C. § 706(2)(D)). Ctr. for
Biological Diversity v. U.S. Forest Serv., 349 F.3d
1157, 1165 (9th Cir. 2003).
As the Fifth Circuit has said in explaining
the need for a more invasive reasonableness
standard: 9
The spirit of the Act would die aborning if a
facile, ex parte decision that the project was
minor or did not significantly affect the
9 The 5th Circuit has since transitioned to an
arbitrary and capricious standard for review of the decision
whether to prepare an EIS. Ctr. for Biological Diversity v.
U.S. Fish and Wildlife Serv., 202 F. Supp. 2d 594, 649 (W.D.
Tex. 2002) (citing Sabine River Auth. v. U.S. Dep’t of Interior,
951 F.2d 669, 677-78 (5th Cir. 1992)). But other courts
continue to carry its mantle. See Goos v. I.C.C., 911 F.2d 1283
(8th Cir. 1990) (applying the reasonableness standard to the
threshold determination of whether NEPA applied to a
particular action and distinguishing threshold questions from
the scenario in Marsh); Jones v. Gordon, 792 F.2d 821, 827
(9th Cir. 1986) (“Federal courts must uphold an agency
decision not to prepare an environmental impact statement
unless that decision is unreasonable.”)

-30environment were too well shielded from
impartial review. Every such decision
pretermits all consideration of that which
Congress has directed be considered “to the
fullest extent possible.” The primary decision
to give or bypass the consideration required
by the Act must be subject to inspection
under a more searching standard.
Save Our Ten Acres v. Kreger, 472 F.2d 463,
466 (5th Cir. 1973). The National Park Service in
this case decided it need not consider whether there
is a significant impact, because it relied on an
exclusion for circumstances where there is no or
only minimal impacts, and NPS did so despite not
conducting its own analysis, in contradiction to the
procedural requirements of NEPA. 40 C.F.R. §
1501.4. Put simply, an agency should not be
allowed to avoid the requirements of § 1501.4 by
relying on a state’s conclusions without doing an
independent analysis. A court that applies an
“arbitrary and capricious” standard to this question
erodes the spirit of the act, allowing an ex parte
decision that the project will not affect the
environment to be “too well shielded from impartial
review.” Kreger, 472 F.2d at 466.
The Seventh Circuit should have reviewed
NPS’s actions for whether they were in
conformance with the procedures of NEPA required
by law. In failing to do so, the lower court
sanctioned an ignorance of procedure that caused
the exact harms NEPA seeks to avoid.

B.

-31Whether a Categorical Exclusion
Applies in This Case Is a Question
of Law That Should Be Reviewed
De Novo

Finally, approaching review of categorical
exclusions from a standard other than arbitrary
and capricious is appropriate considering current
NEPA jurisprudence regarding whether a court is
reviewing questions of law or fact. Questions of law
are usually reviewed de novo. Cty. of Trinity v.
Andrus, 438 F. Supp. 1368, 1388 (E.D. Cal. 1977)
(“The issue here is not whether the actions are of
sufficient magnitude to require the preparation of
an EIS, but rather whether NEPA was intended to
apply at all to the continuing operations of
completed facilities. This is purely a matter of
statutory construction and thus a question of law
for the Court to consider de novo”); and see Marsh,
490 U.S. at 377 (indicating application of legal
standards to settled facts would not employ an
“arbitrary and capricious” review). The analysis
here should also be de novo considering it
necessarily involves only application of law to
settled facts. Marsh, 490 U.S. at 377.
When an agency, like NPS, uses a categorical
exclusion, the agency is affirmatively finding that it
does not need to do any environmental analysis—
i.e., it does not need to create any new facts. That is
exactly what happened here. The NPS did not do
any of its own analysis, and instead relied on the
WDNR’s environmental impact statement to
determine that there would be no or only minimal
impacts. The facts relied on here were contained
solely in the state agency’s analysis: a state-level
EIS that only needed to be prepared because the
state determined that there were significant
environmental impacts. Putting aside the illogical

-32nature of the NPS’s decision to rely on a state’s
determination that there will be a significant
environmental impact to itself find that there
would be no or only minor impacts, the NPS is in
no better place than a court to review the WDNR’s
analysis and come to its own conclusions.
The Seventh Circuit should therefore have
used 5 U.S.C. § 706(2)(D) instead of (2)(A) to derive
its standard of review.

-33CONCLUSION
The petition for writ of certiorari should be
granted.10
RESPECTFULLY SUBMITTED, this 9th day of
March, 2020
Brian H. Potts,
Counsel of Record
Jacob E. Aronson
Danielle S. Grant-Keane
Mary N. Beall
PERKINS COIE LLP
33 East Main Street, Suite 201
Madison, WI 53703-3095
BPotts@perkinscoie.com
608.663.7460
Counsel for Petitioner
Sauk Prairie Conservation
Alliance

10 This petition was drafted using LegalBoards®, the
first and only computer keyboards designed by lawyers, for
lawyers.

No. 19In the

SAUK PRAIRIE CONSERVATION ALLIANCE,
Petitioner
v.
UNITED STATES DEPARTMENT OF THE
INTERIOR; DAVID BERNHARDT, in his
official capacity as Acting Secretary of the U.S.
Department of the Interior; NATIONAL PARK
SERVICE; EMILY W. MURPHY, in her official
capacity as Administrator of the U.S. General
Services Administration; and THE STATE OF
WISCONSIN,
Respondents
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh
Circuit
APPENDIX
TO
PETITION FOR A WRIT OF CERTIORARI

-1aAPPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
No. 18‐2213
SAUK PRAIRIE CONSERVATION ALLIANCE,
v.

Plaintiff‐Appellant,

UNITED STATES DEPARTMENT OF THE INTERIOR,
ET AL.,
Defendants‐Appellees.
Appeal from the United States District Court for
the Western District of Wisconsin,
No. 17‐cv‐35 — James D. Peterson, Chief Judge.
ARGUED MAY 17, 2019
DECIDED DECEMBER 12, 2019
Before RIPPLE, MANION and SYKES, Circuit
Judges.
SYKES, Circuit Judge. The National Park
Service donated more than 3,000 acres in central
Wisconsin to the state’s Department of Natural
Resources. The goal was to turn the site of a Cold
War munitions plant into a state park designed for
a variety of recreational uses. That land now

-2amakes up the Sauk Prairie Recreation Area (“Sauk
Prairie Park”). The Sauk Prairie Conservation
Alliance (“the Alliance”), an environmentalist
group, sued to halt three activities now permitted
at the park: dog training for hunting, off-road
motorcycle riding, and helicopter drills conducted
by the Wisconsin National Guard. The defendants
include the Department of the Interior, the
National Park Service, and several federal officers.
The State of Wisconsin intervened.
The Alliance invokes two federal statutes.
The first is the Property and Administrative
Services Act (“the Property Act”), which, among
other things, controls the terms of deeds issued
through the Federal Land to Parks Program, 40
U.S.C. § 550, the program that led to the creation
of Sauk Prairie Park. The statute requires the
federal government to enforce the terms of any
deed it issues. And here, the relevant deeds
provide that Wisconsin must use Sauk Prairie
Park for its originally intended purposes. The
Alliance argues that dog training and motorcycle
riding are inconsistent with the park’s original
purposes because neither was mentioned in
Wisconsin’s initial application. So, the argument
goes, the statute requires the National Park
Service to enforce the deeds by taking action to
end those uses. The Property Act also requires,
with some important qualifications, that any land
conveyed through the program must be conveyed
for recreational purposes. The Alliance argues that

-3athis provision
training.

precludes

military

helicopter

The second statute at issue is the National
Environmental Policy Act (“NEPA”), 42 U.S.C. §§
4321 et seq. The Alliance claims that the federal
defendants violated NEPA by failing to prepare an
environmental-impact
statement
prior
to
approving these three uses.
The district court entered summary
judgment for the defendants on all claims, and we
affirm. To start, the National Park Service’s
approval of these three uses did not violate the
Property Act. Dog training and off-road motorcycle
riding were not explicitly mentioned in the State’s
initial application, but both are recreational uses
and therefore consistent with the original
purposes of Sauk Prairie Park. And while military
helicopter training is obviously not recreational,
the National Park Service included a provision in
the final deed explicitly reserving the right to
continue the flights, and the Property Act
authorizes reservations of this kind.
As for the NEPA claim, the Alliance failed
to show that the National Park Service acted in an
arbitrary and capricious manner. The agency
reasonably concluded that its approval of both dog
training and off-road motorcycle riding fell within
a categorical exclusion to NEPA’s requirements—
an exclusion for minor amendments to an existing

-4aplan. Helicopter training, on the other hand, likely
doesn’t fall within that category. Still, the
National Park Service was not required to prepare
an environmental-impact statement for this use
because the agency had no authority to
discontinue the flights. Because the Park Service
had no discretion, it was not required to prepare
an environmental-impact statement.
I. Background
The former Badger Army Ammunition Plant
was once the world’s largest propellantmanufacturing facility. Years of heavy industrial
use contaminated the area’s soil and groundwater
with asbestos, lead paint, PCBs, and oil. Plant
operations ceased in 1975, and since then the
Army’s remediation efforts have yielded thousands
of acres suitable for recreational use.
In
2001
the
General
Services
Administration
(“GSA”)
prepared
an
environmental-impact statement assessing various
uses for the site. Given the property’s proximity to
other recreation areas, the GSA concluded that
low- and medium-intensity recreational uses—
activities ranging from hiking to snowmobiling—
would be most appropriate. Around the same time,
then-Congresswoman Tammy Baldwin and local
officials formed the Badger Reuse Committee,
which recommended uses for the property.

-5aThree
years
later
the
Wisconsin
Department of Natural Resources (“DNR”) applied
to acquire portions of the property through the
Federal Land to Parks Program. See 40 U.S.C. §
550. As part of its application, the DNR prepared a
Program of Utilization, a four-page document
describing the proposal at a general level. It said
that the area would be used for recreational
purposes and that it would “include facilities for
hiking, picnicking, primitive camping, Lake
Wisconsin access and viewing, savanna and
grassland restoration, environmental education,
and
cultural/historical
interpretation.”
The
Program of Utilization added that many local
groups “shared a common goal” of converting the
property into a recreation area that would include
low-impact uses. But while the proposal said that
the permitted activities would include these lowimpact uses, it never said that the list was
exhaustive. To the contrary, it explicitly stated
that the DNR would prepare a more detailed
“Master Plan” at a later date to “define
appropriate land uses.” Indeed, when the DNR
wrote the Program of Utilization, it had no idea
which parts of the future Sauk Prairie Park it
would receive, so a detailed proposal simply wasn’t
possible. To give an example, the state agency did
not yet know that it would receive Parcel V1, a
heavily contaminated area that for decades had
been used by the Wisconsin National Guard for
helicopter training.

-6aIn 2005 the National Park Service approved
the application, stating that the DNR would
convert the land primarily for recreational use,
including the activities listed in the Program of
Utilization. Over the next decade, the National
Park Service began transferring the land piece by
piece. Between May 2010 and February 2015, the
agency executed six deeds conveying all but a few
of the parcels that would eventually make up Sauk
Prairie Park (we’ll say more on the remaining
parcels in a moment). Each of these six deeds
included the following language:
[T]he property shall be used and
maintained exclusively for public park
or public recreation[al] purposes for
which it was conveyed in perpetuity …
as set forth in the program of utilization
… , which program and plan may be
amended from time to time at the
request of either the Grantor or
Grantee.
In other words, each deed explicitly incorporated
the DNR’s Program of Utilization—subject to
amendment—as a statement of the purposes for
which the land was conveyed. The deeds also said
that if the DNR violated this condition (or any
others), the land “shall revert to and become the
proper-ty of the [federal government] at its
option.”

-7aDuring those same years, the DNR was
developing its Master Plan for Sauk Prairie Park.
It released a rough draft in late 2015 and a final
draft a year later. Each version proposed to permit
two of the activities contested here. The first is dog
training. Under the Master Plan, hunters may use
a small area—roughly 2% of the park—to train
their dogs; namely, they acclimate the dogs to
gunshots, though the parties tell us that only
blanks are used. (Relatedly, the Master Plan
permits “dog trialing,” a competitive event that
also involves hunting dogs.) It’s worth noting that
the Alliance has chosen not to challenge any of the
other ways in which parkgoers may bring dogs to
and shoot guns in the park. For instance, no one is
challenging the fact that hunting itself is
permitted throughout the park during certain
months of the year.
The second contested use is off-road
motorcycle riding. Six days a year up to 100 riders
may use a limited portion of the bike trails at
Sauk Prairie Park. The motorcycles must meet
several environmental standards, including a
noise restriction.
As for helicopter training, the Master Plan
was more tentative. By the time the DNR
submitted its final draft, the National Park
Service had executed the six deeds we’ve just
mentioned, but it had not yet transferred Parcel
V1 where the helicopters land. The Master Plan

-8adid say that the DNR would support the continued
use of the land for “limited training exercises.” But
because helicopter training is not a recreational
use, the Master Plan said that it would have to be
phased out “unless the V1 deed includes specific
language allowing future use by the [Wisconsin
National Guard].”
The Master Plan also included the DNR’s
state-level environmental-impact statement. The
DNR concluded that dog training and off-road
motorcycle riding would not have a significant
effect on the environment. Most of the state
agency’s analysis focused on the fact that the
Master Plan as a whole would improve the
environment by converting a former munitions
plant into a conservation-focused recreation area—
in other words, that the positive effects would
outweigh the negative. But the plan also included
a meaningful explanation of why the DNR thought
dog training and off-road motorcycle riding
specifically would have a minimal impact, even
when viewed in isolation. The DNR’s assessment
of helicopter training was less optimistic. The
Master Plan noted that helicopters, if permitted,
would generate substantial noise, wind, and dust,
and that “[t]here is a lack of information about
other potential impacts [on wildlife,] including
reproduction, physiological stresses, and behavior
patterns.”

-9aThe National Park Service approved the
final draft of the Master Plan and told the DNR
that it would treat the document as an
amendment to the Program of Utilization. The
National Park Service did not, however, prepare
its own environmental-impact statement before
approving the plan. Instead, it prepared a short
screening form in which it concluded that the
changes to the Program of Utilization were
categorically excluded from NEPA’s requirements.
According to the agency, an environmental-impact
statement wasn’t necessary for “[c]hanges or
amendments to an approved plan, when such
changes would cause no or only minimal
environmental impact.” Relying almost entirely on
the DNR’s environmental analysis, the agency
concluded that the changes to the Program of
Utilization
would
have
“only
minimal”
environmental impact.
After the Master Plan went into effect, the
National Park Service executed two final deeds
conveying what remained of the site. One included
essentially the same terms as the previous six:
that the DNR must use the land in ways
consistent with the purposes described in the
Program of Utilization, subject to amendment, and
that the federal government can reclaim the land
if the DNR violates that condition.
But the final deed broke new ground. This
instrument conveyed Parcel V1, the site of the

-10ahelicopter exercises. Like the other seven, this
deed incorporated the Program of Utilization to
define the “purposes for which [the property] was
conveyed.” Unlike the other seven, it included a
new provision:
Notwithstanding
[the
paragraph
incorporating
the
Program
of
Utilization], if requested by the WDNR
or by the Governor of the State of
Wisconsin, the Wisconsin National
Guard may enter into an agreement
with the WDNR to utilize Parcel V1 for
rotary wing aviation training conducted
in a manner that is consistent with [the]
WDNR’s approved Master Plan for the
Property.
According to e-mails between GSA and the
National Park Service, the United States Army
imposed this requirement. After the parcel was
transferred, the DNR and the Wisconsin National
Guard entered into an agreement permitting
continued helicopter training on Parcel V1. The
agreement also specified a limited flight path for
helicopters crossing the rest of Sauk Prairie Park
to reach Parcel V1. Over certain areas the
helicopters may fly as low as 25 feet above the
ground, while in others they must clear 500 feet.
The
Alliance
is
an
environmental
organization whose members use Sauk Prairie

-11aPark for recreational purposes. It sued the federal
defendants, and the DNR later intervened. The
Alliance claims that the National Park Service
violated the Property Act by authorizing dog
training and off-road motorcycle riding, uses that
are inconsistent with the park’s original purposes.
The Alliance also claims that the agency violated
the Act by approving helicopter training, a plainly
nonrecreational use. Finally, the Alliance claims
that the agency violated NEPA by failing to
prepare an environmental-impact statement for
these uses.
The Alliance moved for a preliminary
injunction, which the district judge denied. While
the Alliance’s interlocutory appeal of that ruling
was pending, the judge entered summary
judgment for the defendants on all claims. The
judge ruled that the contested uses do not conflict
with the Property Act and that the amendments to
the Master Plan do in fact fall within a categorical
exclusion to NEPA’s requirements. We now review
that final judgment on the merits.
II. Discussion
“We review a summary judgment de novo,
asking whether the movant has shown that there
is no genuine dispute as to any material fact.”
Kopplin v. Wis. Cent. Ltd., 914 F.3d 1099, 1102
(7th Cir. 2019) (quotation marks omitted). Under
the Administrative Procedure Act, which controls

-12aour review, we may set aside the agency’s
decisions only if they were “arbitrary, capricious,
an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. § 706(2)(A). This
“standard of review is a narrow one.” Marsh v. Or.
Nat. Res. Council, 490 U.S. 360, 378 (1989)
(quotation marks omitted). “We only must ask
whether the decision was based on a consideration
of the relevant factors and whether there has been
a clear error of judgment.” Highway J Citizens
Grp. v. Mineta, 349 F.3d 938, 952–53 (7th Cir.
2003) (quotation marks omitted). Regarding the
NEPA claim in particular, “arbitrary and
capricious review prohibits a court from
substituting its judgment for that of the agency as
to the environmental consequences of its actions.”
Id. at 953 (quotation marks and alteration
omitted).
Before we take up the merits, a brief word
about standing. The district judge appropriately
began his analysis by examining whether the
Alliance has standing to challenge the contested
uses. Citing well-established principles governing
suits brought by environmental groups, the judge
concluded that the Alliance has established
standing to sue. More specifically, the judge
evaluated the following requirements for
associational standing:
An organization has standing to sue if
(1) at least one of its members would

-13aotherwise have standing; (2) the
interests at stake in the litigation are
germane to the organization’s purpose;
and (3) neither the claim asserted nor
the relief requested requires an
individual member’s participation in the
lawsuit.
Sierra Club v. Franklin Cty. Power of Ill., LLC,
546 F.3d 918, 924 (7th Cir. 2008). The judge
concluded that the Alliance satisfies each of these
elements, and we agree. No one contests the point,
so no more needs to be said.
A.

The National Park Service’s approval of
the contested uses was fully consistent
with the Property Act.

We start with an overview of the statutory
framework. Four aspects of the Property Act are
important here:
First, the statute authorizes the Secretary
of the Interior (the “Secretary”) to sell surplus land
to states to build parks. “[T]he Secretary, for
public park or recreation area use, may sell or
lease property assigned to the Secretary … to a
State, a political subdivision or instrumentality of
a State, or a municipality.” 40 U.S.C. § 550(e)(2).
Second, the statute mandates that
whenever the Secretary executes a deed, the

-14agovernment must retain the option to retake the
land if the state stops using the property for its
intended purposes.
The deed of conveyance of any surplus
real property disposed of under this
subsection … shall provide that all of
the property be used and maintained for
the purpose for which it was conveyed
in perpetuity, and that if the property
ceases to be used or maintained for that
purpose, all or any portion of the
property shall, in its then existing
condition, at the option of the
Government, revert to the Government.
§ 550(e)(4)(A).
Third, the statute authorizes the Secretary
to include other necessary reservations in addition
to the option to retake the land. “The deed of
conveyance of any surplus real property disposed
of under this subsection … may contain additional
terms, reservations, restrictions, and conditions
the Secretary of the Interior determines are
necessary to safeguard the interests of the
Government.” § 550(e)(4)(B).
Fourth, the statute imposes an affirmative
obligation on the Secretary to enforce the terms of
the deeds. The Secretary “shall determine and
enforce compliance with the terms, conditions,

-15areservations, and restrictions contained in an
instrument by which a transfer under this section
is made.”
§ 550(b)(1).
1.

Dog Training and Off-Road Motorcycle
Riding

No one disputes that both dog training and
off-road motorcycle riding are recreational
activities. The Alliance argues that the National
Park Service nonetheless violated the Property Act
when it approved these uses because (1) the
federal government has an obligation under §
550(b)(1) to enforce the terms of the deeds; (2) the
deeds say, in accordance with § 550(e)(4)(A), that
the property may be used only for its originally
intended purposes; and (3) these two activities
were not among the originally contemplated uses.
This argument turns on how the park’s originally
intended purposes are defined. For what it’s
worth, we agree with the Alliance that we begin
with the Program of Utilization. All eight deeds
explicitly incorporate that document as a
statement of the “public park or public recreation
purposes for which [the property] was conveyed in
perpetuity.” But the Alliance fails to appreciate
the broad strokes with which the Program of
Utilization discussed the park’s purpose. The
document is written at a high level of generality. It
simply says that Sauk Prairie Park will be used

-16afor recreation with the specifics to be filled in later
by the Master Plan. And that’s exactly what
happened here.
The Alliance insists that the Program of
Utilization limits the park’s uses to the specific
activities listed—things like hiking and camping—
or at the very least to low-impact uses. But that’s
not what the Program of Utilization says. It says
only that the proposed uses will include those
listed. And we generally read the word “including”
to “introduce[] examples, not an exhaustive list.”
Bernal v. NRA Grp., LLC, 930 F.3d 891, 894 (7th
Cir. 2019) (quoting Antonin Scalia & Bryan A.
GARNER, READING LAW: THE INTERPRETATION OF
LEGAL TEXTS 132 (2012)).
So we frame the purpose of the conveyance
at an appropriately general level: the property was
conveyed for recreational use, writ large. And dog
training and off-road motorcycle riding are fully
consistent with that broad recreational purpose.
When the Master Plan filled in the details by
adding these uses (among others), it did no more
than implement what was laid out in the Program
of Utilization. So there was no deed violation—and
therefore nothing for the National Park Service to
enforce.
The Alliance offers two responses. First, it
says that the DNR was bound not just by the
Program of Utilization but also by the

-17arecommendations of the Badger Reuse Committee, the group of local officials organized early in
the process. The Alliance maintains that the
committee recommended only low-impact uses.
But it has never explained why those
recommendations are binding. Granted, the
Program of Utilization says that the Master Plan
would “build upon work done” by the committee.
But it never said that the Master Plan’s authors
were bound to what the committee had in mind.
As far as we can gather from the record, the
committee’s recommendations were exactly that:
recommendations.
Second, the Alliance argues that the DNR
was authorized to add new activities only if the
additions were similar to the activities that were
already listed—namely, those with similarly
minimal environmental impact. The Alliance
frames this argument as a variation on the
ejusdem generis canon of interpretation. See
SCALIA & GARNER, supra at 199 (“Where general
words follow an enumeration of two or more
things, they apply only to persons or things of the
same general kind or class specifically
mentioned.”). Once again, nothing in the Program
of Utilization called for that kind of rigidity. The
document included a nonexhaustive list of
examples with a separate provision explaining
that the list would be expanded. Indeed, the most
the document says is that the listed activities were
“the types of uses we’d anticipate would come out

-18aof the planning process.” Nothing in that language
outright prohibited the DNR from exploring other
recreational uses.1
Simply put, nothing in the text of the
document suggests a restriction on the DNR’s
ability to add new recreational uses. The National
Park Service did not violate the Property Act when
it approved dog training and off-road motorcycle
riding at Sauk Prairie Park.2
1 As for ejusdem generis, there are several reasons
the canon doesn’t apply. For one, we typically use it “to
ensure that a general word will not render specific words
meaningless,” CSX Transp., Inc. v. Ala. Dep’t of Revenue, 562
U.S. 277, 295 (2011), and there’s no risk of that here. To the
contrary, it’s obvious why this document would include some
specifics in addition to a general reservation for
amendments: It was an early proposal for a large-scale plan,
so it would be natural to give as many details as possible
while otherwise retaining flexibility. So the canon just
doesn’t do any work here—for this reason, and others. See
Ali v. Fed. Bureau of Prisons, 552 U.S. 214, 225 (2008)
(explaining that the canon is relevant only when the text
follows an exact pattern: where there is “a list of specific
items separated by commas and followed by a general or
collective term”); Tourdot v. Rockford Health Plans, Inc., 439
F.3d 351, 354 (7th Cir. 2006) (explaining that the canon
applies only if “uncertainty or ambiguity exists”).
2 The Alliance also raises a technical challenge to a
provision in the Master Plan permitting the DNR to hold
unspecified special events outside the park’s normal use
patterns. But the Alliance offered almost no independent
analysis of why that provision violates the Property Act. In
any event, the special events will be recreational in nature,

-19a2.

The National Guard’s Helicopter
Exercises

Unlike dog training and off-road motorcycle
riding, military helicopter training is legitimately
inconsistent with the recreational uses laid out in
the Program of Utilization. No one argues
otherwise. But the National Park Service included
a provision in the deed conveying Parcel V1 that
explicitly permits the DNR to reach an agreement
with the Wisconsin National Guard to authorize
continued helicopter training. This counts as an
“additional … reservation[] … necessary to
safeguard the interests of the Government” as
permitted under § 550(e)(4)(B).
In response the Alliance argues that §
550(e)(4)(B) is still subject to the statute’s
overarching requirement that the property be
conveyed for recreational use. That is, the Alliance
contends that the “additional reservations” can
include whatever reservations the government
finds are in its interests unless those reservations
would permit non-recreational activity.
We disagree with this interpretation of the
Property Act. It is perfectly consistent with the
statute for the federal government to convey its
so they—like dog training and off-road motorcycling—are
perfectly consistent with the purposes for which Sauk Prairie
Park was conveyed.

-20aproperty to the State of Wisconsin “for public park
or recreation area use,” § 550(e)(2), and to require
that “the property be used and maintained” by the
State in perpetuity for recreational use, §
550(e)(4)(A), while simultaneously including
“reservations” in its own interests that have
nothing to do with recreation. The Alliance
counters that the statute puts the government to
an
all-or-nothing
choice:
abandon
all
nonrecreational interests in the property or don’t
use the § 550(e) land-grant program at all. But
that ultimatum simply isn’t in the statute’s text.
The
statute
instead
broadly
permits
reservations—i.e., “[t]he establishment of a
limiting condition or qualification.” Reservation,
BLACK’S LAW DICTIONARY (11th ed. 2019); id. (“A
keeping back or withholding.”). That is, while §
550(e)(2) authorizes the government to sell or
donate the property for recreational use, §
550(e)(4)(B) authorizes the government to limit
and qualify that transfer. The fact that the
transfer must be for a given reason doesn’t mean
that the limitations on that transfer must advance
the same purpose. If they did, they wouldn’t even
be limitations.
After all, it’s hard to imagine a reservation
aimed exclusively at recreation that would be
“necessary to safeguard the interests” of the
United States Government. § 550(e)(4)(B). Indeed,
the Alliance’s argument would invalidate most of
the other reservations found in these deeds, none

-21aof which it contends were unlawful. For example,
the deeds retain for the federal government “a
non-exclusive easement for use of … roadways,”
presumably for nonrecreational purposes. The
deeds also grant the government the right “to
enter upon the Property for any purpose of its own
as long as [the] Army continues to occupy any
portion of the former” munitions plant. (Emphasis
added.) And the deeds grant the Army “the right to
excavate and remove clay from any portion of the
Property.” If the Alliance’s interpretation is
correct, all of these unchallenged reservations
would also violate the Property Act because they
all permit nonrecreational uses. But the Alliance’s
interpretation is not correct; the clear terms of §
550(e)(4)(B) permit the government to include
exactly these kinds of qualifications.
Next, the Alliance says that the helicoptertraining provision is unlawful because it conflicts
with other parts of the deed that require the
property to be used for recreational purposes
consistent with the Program of Utilization. But the
paragraph of the deed authorizing helicopter
training
explicitly
says
that
it
applies
“notwithstanding” the parts of the deed that
discuss recreational uses. Because of that superordinating language, there is no conflict.
Finally, the Alliance says that § 550(e)(4)(B)
should not apply because there is no evidence that
the Secretary actually determined that this

-22areservation is “necessary to safe-guard the
interests of the Government.” This argument is
new on appeal; the Alliance never mentioned it in
the district court. When we raised the prospect of
waiver at oral argument, the Alliance’s attorney
directed us to two pages of its summary-judgment
brief. But those pages never mention this point,
nor does anything in the rest of the brief. The
argument is therefore waived. See Puffer v.
Allstate Ins. Co., 675 F.3d 709, 718 (7th Cir. 2012)
(“It is a well-established rule that arguments not
raised to the district court are waived on appeal.”).
Even if the Alliance had preserved this
argument, the available evidence suggests that the
Secretary included this reservation because the
Department concluded, in light of a request by the
Army, that the provision was necessary to
safeguard the nation’s interests in training
members of the National Guard. In one e-mail, a
GSA representative explained to Elyse LaForest of
the National Park Service that the helicopter
provision was “a requirement imposed by [the]
Army to allow continued use of the parcel by [the]
Wisconsin National Guard for helicopter training
activities.” In a second e-mail, LaForest explained
to the DNR that “helicopter use is a condition of
assignment by the Army.” And in a third e-mail
chain, LaForest informed the State that the
provision was originally requested by the
Pentagon and that the National Park Service did
not have the authority to move forward until it got

-23a“word from [the] Army.” So waiver aside, the
Alliance’s argument is meritless.
As a fallback the Alliance argues that even
if helicopter training in Parcel V1 is not unlawful,
the low-level flights over the rest of the park are a
step too far. As the Alliance correctly notes, the
deeds conveying the other parcels said nothing
about helicopters. They simply said that the
“property shall be used and maintained exclusively
for public park or public recreation[al] purposes …
in perpetuity.” The federal defendants argue that
the other deeds are relevant only in defining which
land uses are permitted and that the military has
the right to use the airspace over those parcels
regardless of whether the deeds explicitly permit
it.
We’re hard-pressed to evaluate this
argument because no party cites any support for
its position—not a single case, statute, or
regulation. The Alliance simply declares that the
flights violate the deeds; the federal defendants
declare that they do not. But this isn’t an easy
question with an obvious answer. We’ve identified
a number of legal principles that could plausibly
be relevant. For instance, a Wisconsin statute
declares that “[t]he ownership of the space above
the lands and waters of this state is declared to be
vested in the several owners of the surface
beneath.” WIS. STAT. § 114.03. Like-wise, the
Wisconsin Supreme Court has said that “a land-

-24aowner has a three dimensional property interest in
… the block of air that is bounded by … the
person’s land holdings … and rises up to
approximately the height of the governmentdefined minimum safe altitude of flight.” Brenner
v. New Richmond Reg’l Airport Comm’n, 816
N.W.2d 291, 303 (Wis. 2012). And the state high
court has also held that the government takes a
property interest in a piece of land if it flies “low
enough and with sufficient frequency to have a
direct and immediate effect on the use and
enjoyment of the property.” Id. at 310. On the
other hand, while federal regulations prohibit
aircraft from flying below certain altitudes, see 14
C.F.R. § 91.119, they carve out an exception for
helicopters, which “may be operated at less than
the minimums prescribed” elsewhere so long as
the pilot follows federal law and flies “without
hazard to persons or property on the surface,” id. §
91.119(d).
Without the benefit of any briefing on these
issues, we have no basis to properly evaluate this
argument. Because the Alliance did not develop its
position in a meaningful way, this argument is
also waived. See Local 15, Int’l Bhd. of Elec.
Workers, AFL-CIO v. Exelon Corp., 495 F.3d 779,
783 (7th Cir. 2007) (“A party waives any argument
that it does not raise before the district court or, if
raised in the district court, it fails to develop on
appeal.”) (quotation marks omitted).

-25aB. The National Park Service’s NEPA analysis was
not arbitrary or capricious.
NEPA requires federal agencies to prepare
environmental-impact statements for “major
Federal actions significantly affecting the quality
of the human environment.” 42 U.S.C. § 4332(c).
The federal defendants argue that the National
Park Service was not required to prepare an
impact statement evaluating dog training or offroad motorcycling because the agency’s approval of
these uses was categorically excluded from
NEPA’s requirements. As for helicopter training,
they argue that the National Park Service had no
discretion to discontinue the flights in light of the
Army’s demands.
1.

Dog Training and Off-Road Motorcycle
Riding

Whether an environmental-impact statement is required hinges on whether the action at
issue will “significantly affect” the environment.
The question here is how much analysis an agency
must do before deciding that an action won’t have
significant
environmental
effects.
More
specifically, how can an agency know what effects
the action will have without preparing the
environmental-impact statement in the first place?
In the typical case, an agency will prepare
an “environmental assessment,” see 40 C.F.R. §

-26a1501.4(b), which we’ve described as “a rough-cut,
low-budget environmental impact statement
designed to show whether a full-fledged
environmental impact statement—which is very
costly and time-consuming to prepare and has
been the kiss of death to many a federal project—
is necessary,” Rhodes v. Johnson, 153 F.3d 785,
788 (7th Cir. 1998) (quotation marks omitted). But
an agency can skip the environmental assessment
if an action falls within a “categorical exclusion,”
see 40 C.F.R. § 1501.4(a)(2), which the regulations
define as “a category of actions which do not
individually or cumulatively have a significant
effect on the human environment and which have
been found to have no such effect in procedures
adopted by a Federal agency,” id. § 1508.4. If an
action falls within a categorical exclusion, the
agency generally does not need to prepare an
environmental-impact statement, subject to one
carveout: Even if an action falls within a specified
category, an environmental-impact statement is
still necessary if there are “extraordinary
circumstances” indicating that the action will
nonetheless have a significant effect. See id. So the
inquiry presents two questions: Does this action
fall within a category that generally has no
significant effect? And will it nonetheless have a
significant effect because of extraordinary
circumstances unique to this case?
an

The National Park Service prepared neither
environmental-impact statement nor an

-27aenvironmental assessment. Instead it took the
position that the decision to permit the contested
uses fell within a categorical exclusion for
“[c]hanges or amendments to an approved plan,
when such changes would cause no or only
minimal environmental impact.” We’ll call this the
minor-amendment category.
We begin by noting that the Alliance has
never challenged whether the minor-amendment
category is legitimate in the first place—despite
several potential problems with its provenance.
For one, the substance of this category of exclusion
is rather unusual. As mentioned, section 1508.4
permits an agency to skip an environmentalimpact statement for actions falling within a
specified category, but only if it uses established
procedures to determine that actions within that
category generally have no significant effect. In
other words, NEPA always requires some sort of
environmental analysis, but the agency may do it
at the categorical level rather than on a case-bycase basis. But the minor-amendment category is
defined in terms of whether an action’s impact will
be minimal, which is completely circular: Why
doesn’t the agency have to assess whether the
action will have a significant effect? Because it
falls within the minor-amendment category. Why
does it fall within that category? Because it won’t
have a significant effect. Given that circularity, it’s
unclear what kind of environmental analysis the

-28aNational Park Service could have possibly done at
a categorical level.3
Nonetheless, the Alliance did not raise this
point in its briefs, and at oral argument it
affirmatively waived any challenge to the
substance of the minor-amendment category. For
the purpose of this litigation, no environmentalimpact statement was required if the National
3 There was also some uncertainty at oral argument
about whether this category was developed through noticeand-comment rulemaking and whether it appears in the
Federal Register—both of which are indisputably required.
See 40 C.F.R. §§ 1508.4, 1507.3. But after oral argument the
government was finally able to confirm that the minoramendment category went through the rulemaking process
and that it appears in the federal register. See National
Environmental
Policy
Act;
Revised
Implementing
Procedures, 49 C.F.R. §Fed,233, 39,235 (Oct. 4, 1984).

Likewise, there was some uncertainty about whether
the minor-amendment category appeared anywhere in the
record on appeal. In the National Park Service’s NEPA
screening form—the document in which it determined that
no environmental-impact statement was needed—the agency
claimed that the minor-amendment category could be found
in section 3.3(B)(1) of the agency’s NEPA handbook. But the
parties could not identify at oral argument where section
3.3(B)(1) appeared in the record. The agency’s appendix
includes only section 3.3(A)(1)—a similarly worded category
that applies to changes to “actions related to general
administration.” But the agency indisputably did not rely on
that category here. It wasn’t until after oral argument that
the government finally supplemented the record with the
correct portion of its NEPA handbook.

-29aPark Service found that the amendments to the
Program of Utilization “would cause no or only
minimal environmental impact.”
The first major dispute is whether it was
appropriate for the National Park Service to rely
almost exclusively on the DNR’s environmentalimpact statement. The National Park Service itself
prepared only a short 13-page screening form in
which it checked a few boxes and included a few
lines of brisk explanation. Its final conclusions
rested almost entirely on conclusions already
made by the state environmental agency. The
Alliance claims that the National Park Service
was required to conduct its own independent
analysis to satisfy NEPA.
We disagree. To be sure, there are several
places where either NEPA or its associated
regulations require independent actions by the
federal agency itself. For instance, when a full
environmental-impact statement is necessary, the
statute requires “a detailed statement by the
responsible official.” § 4332(C) (emphasis added).
Likewise, an agency can approve a category of use
as a categorical exclusion only if the category first
passes through procedures established “by a
Federal agency.” See 40 C.F.R. § 1508.4 (emphasis
added). But the Alliance hasn’t cited any legal
authority that limits what kind of information an
agency may rely on in determining whether a
properly promulgated category applies. And that’s

-30athe kind of choice that’s usually left to the agency.
See La. ex rel. Guste v. Verity, 853 F.2d 322, 329
(5th Cir. 1988) (“[O]ur deference to the agency is
greatest when reviewing technical matters within
its area of expertise, particularly its choice of
scientific data and statistical methodology.”).
We dealt with a similar question in a
different context in Highway J Citizens Group.
The question there was whether a federal agency
could rely on a state-level environmental
analysis—not at the first step of the categoricalexclusion analysis (whether a categorical exclusion
applies at all) but at the second step (whether
extraordinary circumstances require an impact
statement despite the category’s application). We
said that the federal agency could rely on the
state’s analysis because “neither a statute nor a
rule requires the agency to write its own analysis.”
Highway J Citizens Grp., 891 F.3d at 699. That is
just as true at the first step of the categoricalexclusion analysis: No statute or rule requires an
independent evaluation. Accordingly, a federal
agency may rely on a state’s environmental-impact
analysis to determine whether a categorical
exclusion applies.
The next major dispute concerns the
appropriate base-line. An action with “minimal”
impact falls within the exclusion. But “minimal”
compared to what? The Alliance insists that
because the minor-amendment category is defined

-31ain terms of “amendments,” we should compare the
impact of these three uses to “the impacts that
would occur under the original Program of
Utilization.” The National Park Service disagrees.
Rather than compare the amended plan to what
would have happened under the original proposal,
the National Park Service says that we should
focus on the final plan’s impact on the park’s
actual, current conditions.
According to the Alliance, the National Park
Service’s baseline distorts the inquiry in two ways.
First, it absolves the agency of doing meaningful
analysis because pretty much any plan would
improve the park’s current conditions. Sauk
Prairie Park sits on the remains of a contaminated
munitions plant, so any kind of recreation area
will be an improvement. Second, the Alliance
argues that the National Park Service’s baseline
allows for too much balancing of distinct impacts.
Namely, the federal agency claims it can offset the
negative impacts of these uses with the positive
impacts of the plan’s extensive habitat-restoration
efforts. The problem, according to the Alliance, is
that we’re evaluating proposed changes to the
Program of Utilization, and the original program
already included those restoration efforts. The
Alliance also argues that federal regulations
prohibit this kind of offsetting. See 40 C.F.R. §
1508.27(b)(1) (“A significant effect may exist even
if the Federal agency believes that on balance the
effect will be beneficial.”).

-32aWe need not decide which baseline is
correct. Under either framework there was enough
analysis in the Master Plan and in the NEPA
screening form to support the National Park
Service’s conclusion that the amendments would
have minimal impact. In other words, some of the
analysis truly does evaluate the effect of the
amendments as amendments, just as the Alliance
demands.
As discussed, the National Park Service’s
NEPA screening form relied heavily on the
environmental analysis that the DNR provided in
the Master Plan. It’s important to remember that
when the state agency prepared its own
environmental-impact
statement,
it
was
evaluating the plan in its entirety. As a result, it
includes analysis of both the total result—that is,
the cumulative effect of the beneficial and harmful
impacts—as well as of individual uses on their
own.
To give just a few examples, the Master
Plan describes nine ways in which it proposed to
limit the harmful effects of off-road motorcycling.
Among others, riding would be limited to six days
per year and to half the park’s trails, and each
bike would have to be tested to ensure its noise did
not exceed 96 decibels. The Master Plan then
explained that at Wisconsin’s Bong State
Recreation Area, data showed that “[t]here doesn’t
appear to be a sizeable reduction in the number of

-33aspecies or number of birds in the area where
motorized recreation is allowed compared to other
areas on the property.” Finally, the Master Plan
concluded, “[w]hile individual animals may
experience stress and stress responses[,] … any
impacts to populations are expected to be minor.”
Largely relying on these findings, the National
Park Service noted in its NEPA screening form
that because the “plan has limited the frequency of
motorized use and provides management
guidelines to limit impacts on wildlife,” the use
would not “[h]ave significant negative impacts on
species.”
Note that this analysis explicitly compares
what would happen with motorcycle riding to what
would happen without it. In other words, it
compares the effect of a plan with amendments to
the effect of a plan with none. That’s the Alliance’s
baseline.
The analysis of dog training was less
extensive, but the Master Plan still assessed its
impact under the Alliance’s proposed baseline, at
least to some extent. For instance, the plan says
that “[a]ny impacts to biological resources from
dog trials are likely to be minimal, localized, and
of short duration.” It also says that because there
is no “pattern of problems or complaints related to
the use of dog training grounds” at other
recreation areas in the state, “[a]ny impacts

-34aassociated with the dog training at [Sauk Prairie
Park] are expected to be minor and temporary.”
Granted, the Master Plan also included
language about the impact of the plan as a whole
rather than of the amendments in isolation. For
instance, it said, “When balanced against the
habitat improvements that are planned and
associated increases in wildlife that are expected,
impacts from the use of dual-sport motorcycle[s] at
[Sauk Prairie Park] are expected to be limited.”
But the fact that the Master Plan included some
“whole plan” analysis doesn’t change the fact that
it also included ample analysis directly assessing
the impact of the amendments themselves.
That analysis was sufficient—certainly so
under our narrow standard of review. As noted
earlier, we may set aside the agency’s decision
only if it was “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with
law.” 5 U.S.C. § 706(2)(A). The Supreme Court has
directed us to ask whether the “decision was based
on a consideration of the relevant factors and
whether there has been a clear error of judgment,”
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983),
but “the ultimate standard of review is a narrow
one,” Marsh, 490 U.S. at 378 (quotation marks
omitted). In the NEPA context, we have said that
“[i]f an agency considers the proper factors and
makes a factual determination on whether the

-35aenvironmental impacts are significant or not, that
decision implicates substantial agency expertise
and is entitled to deference.” Highway J Citizens
Grp., 349 F.3d at 953. The agency relied on the
State’s analysis, which in turn evaluated the
expected impact of the contested uses and
concluded that the impact would be minimal—
even when considered in isolation, without
reference to other beneficial parts of the plan.
Nothing about the agency’s conclusion was
arbitrary or capricious, and its application of
expertise is entitled to deference.
As a final rejoinder, the Alliance falls back
on the second step of the categorical-exclusion
analysis. It argues that even if this use falls within
the categorical exclusion, the National Park
Service was still required to prepare an
environmental-impact statement because of
extraordinary circumstances. As required by
federal regulations, the Department of the Interior
has promulgated a list of potentially extraordinary
circumstances that should be considered in this
context. See 43 C.F.R. § 46.215. The Alliance
claims four are at issue here.
The first three involve issues similar to
those we’ve already discussed. The Alliance argues
that the action will have “significant impacts on
such natural resources and unique geographic
characteristics as … park, recreation, or refuge
lands[,] … and other ecologically significant or

-36acritical areas.” Id. § 46.215(b). It then argues that
the action will have “highly uncertain and
potentially significant environmental effects.” Id. §
46.215(d). And finally, it argues that the action
will “[e]stablish a precedent for future action …
with potentially significant environmental effects.”
Id. § 46.215(e). But we’ve already held that the
National Park Service adequately explained why
dog training and motorcycle riding will not have
significant
environmental
effects.
These
arguments fail for the same reasons.
The fourth provision is slightly more
plausible. The Alliance claims that the action will
have “highly controversial environmental effects or
involve unresolved conflicts concerning alternative
uses of available resources.” Id. § 46.215(c). The
National Park Service acknowledged in its NEPA
screening form that there was public controversy
over whether to permit active or passive
recreation. The agency discounted that problem by
noting
that
the
State—not
the
federal
government—defines the property’s uses. But it’s
not clear why that matters: The National Park
Service concedes that its decision to approve the
State’s proposed uses is a major federal action for
NEPA purposes. So it has an obligation to
determine whether its own extraordinarycircumstances regulations require an impact
statement. And those regulations say that “highly
controversial environmental effects or …
unresolved conflicts” can be enough to trigger

-37afurther review. Nonetheless, the Alliance never
argued before the district court that public
controversy warranted a full impact statement
under this regulation. The argument is therefore
waived. See Puffer, 675 F.3d at 718.
The National Park Service’s approval of dog
training and off-road motorcycling fits comfortably
within the categorical exclusion, and no
extraordinary circumstances otherwise required a
full environmental-impact statement.
2.

Helicopter Training

In its NEPA screening form, the National
Park Service offered essentially no independent
analysis of the environmental impact of helicopter
training at Sauk Prairie Park. And unlike with the
other two contested uses, the agency didn’t even
purport to rely on the state-level environmentalimpact statement. That was likely because the
DNR couldn’t say with certainty that continued
helicopter training would not harm the
environment. It noted that helicopters “will
generate considerable wind and dust” and
“substantial noise,” and that “[t]here is a lack of
information about other potential impacts [on
wildlife,] including reproduction, physiological
stresses, and behavior patterns.”
All the same, the federal defendants argue
that no impact statement was required because

-38aNEPA applies only when an agency has discretion
over whether to take the proposed action. The
National Park Service had no discretion here
because the Army conditioned its approval of this
land transfer on continued helicopter use. It was
the Army’s land to begin with, and the Army
would not release it without this provision. In
other words, helicopter training was going to
continue at Parcel V1 one way or another.
Earlier in this opinion we addressed a
similar issue when we discussed whether the
Secretary actually determined that the helicoptertraining provision was necessary to safeguard the
nation’s interests as required by § 550(e)(4)(B). As
we observed, the available evidence shows that the
Secretary included this provision in the final deed
based on the Army’s request. Communications
between different government agencies reveal that
continued helicopter use was “a requirement
imposed by [the] Army,” that “helicopter use is a
condition of assignment by the Army,” and that
the National Park Service did not have the
authority to move forward until it got “word from
[the] Army” on this issue.
Given that the National Park Service had
no independent authority to end helicopter
training at Parcel V1, no environmental-impact
statement was required. The Supreme Court
addressed this question in Department of
Transportation v. Public Citizen, 541 U.S. 752, 766

-39a(2004). That case involved the regulation of motor
carriers (i.e., highway trucks); more specifically, it
dealt with the authorization of Mexican motor
carriers to operate in the United States. The
statutory and regulatory background is somewhat
complex, but the central question was whether an
agency had to evaluate the environmental effects
of opening the United States market to Mexican
motor carriers if the agency had no authority to
categorically exclude applications from that
country.
The Court held that the agency was not
required to conduct any analysis. The decision
started with causation principles. NEPA requires
an environmental-impact statement only when a
federal action will “significantly affect” the
environment, § 4332(C), and federal regulations
define “effects” as something “caused by the
action” the federal agency is contemplating, 40
C.F.R. § 1508.8; see Public Citizen, 541 U.S. at
763–64. The Court held that an action must be
both the “but for” cause of the environmental
impact as well as the proximate cause. See Public
Citizen, 541 U.S. at 767. In Public Citizen there
was an insufficient causal connection between the
agency’s
proposed
regulations
and
the
environmental effect of new applications because
the agency had no authority to prohibit those
applications. See id. at 768–70.

-40aThis case is exactly the same. The National
Park Service could either approve the provision
that permitted helicopter training in the
recreation area or it could permit the Army to
retain the land and continue the helicopter
training all the same. Because the National Park
Service had no authority to end the helicopter
training, there is no causal connection between its
decision to approve the provision and any
environmental effects continued training might
have. Accordingly, the National Park Service was
not required to prepare an environmental-impact
statement.4
III. Conclusion
In sum, the National Park Service did not
violate the Property Act when it approved the
three contested uses. Two of the three uses are
4 The Alliance also briefly argues that the National
Park Service should have prepared an environmental-impact
statement evaluating the provision of the Master Plan
permitting unspecified special events. But because these are
unplanned events outside the park’s normal use patterns,
the Master Plan says that each permit applicant must show
that the event will not unduly impact the park’s resources.
Today those events are merely hypothetical, so no impact
statement is needed: “[NEPA] speaks solely in terms of
proposed actions; it does not require an agency to consider
the possible environmental impacts of less imminent actions
when preparing the impact statement on proposed actions.”
Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139, 145
(2010) (quotation marks omitted).

-41arecreational activities perfectly consistent with
Sauk Prairie Park’s recreational purposes, and the
third was authorized by an explicit reservation in
the deed, as permitted by statute. Nor did the
National Park Service violate NEPA. It provided
enough explanation for why two of the contested
uses fell within a categorical exclusion. And
because it had no authority to discontinue the
third use, no environmental analysis was required.
AFFIRMED

-42aAPPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WISCONSIN
SAUK PRAIRIE CONSERVATION ALLIANCE,
Plaintiff,
v.

Case No. 17cv-35-jdp

U.S. DEPARTMENT OF THE INTERIOR,
SALLY JEWELL, NATIONAL PARK SERVICE,
MICHAEL REYNOLDS, U.S. GENERAL
SERVICES ADMINISTRATION, and DENISE
TURNER ROTH,
Defendants.
v.
STATE OF WISCONSIN,
Intervenor Defendant.
_______________________________________________
OPINION AND ORDER
_______________________________________________
This case involves a dispute over the proper
use of the Sauk Prairie State Recreation Area,
which is located on the lands of the former Badger
Army Ammunition Plant in Sauk County,
Wisconsin. The federal government transferred
the land to Wisconsin over a period of several
years, beginning in 2009 and ending in 2016.

-43aPlaintiff Sauk Prairie Conservation Alliance
says that the recreation area should be limited to
“low impact” uses, such as hiking, birding, and
bicycling and it objects to a plan prepared by the
Wisconsin Department of Natural Resources and
approved by the National Park Service that allows
dog training and dual-sport motorcycle events. The
Alliance also objects to allowing the Wisconsin
National Guard to continue its longstanding
practice of conducting helicopter training on a
portion of the property. The Alliance contends that
the federal government violated both the Federal
Property and Administrative Services Act
(FPASA) and the National Environmental Policy
(NEPA) when it allowed these uses.
Both sides have moved for summary
judgment. Dkt. 47 and Dkt. 61. The court will
grant defendants’ motion and deny the Alliance’s
motion because the Alliance has failed to show
either that the National Park Service (NPS) lacked
authority under FPASA to approve the proposed
uses for the recreation area or that it was
arbitrary and capricious for NPS to conclude under
NEPA that the proposed uses would have no more
than a minimal impact on the environment.
UNDISPUTED FACTS
The facts are taken from the administrative
record and are undisputed.

-44aA.

History of the recreation area

The Sauk Prairie State Recreation Area is
made up of 3,385 acres of land in Sauk County,
Wisconsin. The area was once part of the Badger
Army Ammunition Plant, which covered more
than 7,300 acres. R. 3870 and 3876. Beginning in
World War II, the plant was used to manufacture
military propellants, but the plant ceased
operating in 1975 and the army decommissioned
the land in 1997. R. 3869 and R. 3987–88.
The industrial activities at the plant caused
contamination from asbestos, lead paint, PCBs,
and oil in the buildings, sewer systems, and
groundwater. The Army has undertaken efforts to
remediate the contamination, so the land now
meets the requirements to be used as a recreation
area, R. 3873, but there is still “an extensive
invasive species problem,” R. 3892.
Plaintiff Sauk Prairie Conservation Alliance
is a non-profit corporation located in Sauk County
that promotes education and cooperative
conservation on the former Badger Army
Ammunition Plant lands and in the surrounding
Sauk Prairie area. The Alliance was organized
after the plant was decommissioned. R. 3190–91
and 4367.
The Wisconsin National Guard has
performed helicopter training in part of what is

-45anow the recreation area for decades. R. 38–40. The
training is typically conducted during the week,
often in the evenings or at night, and includes
tactical flight training, including flights at low
levels and night vision flight training over the
property. Pilots also practice landings, take-offs,
picking up heavy loads (typically a concrete-filled
barrel on a sling), and flying a designated loop
route and then setting it back down at the same
site. There are approximately eight flights per
week using one or two helicopters, three to five
days per week. R. 3910.
land

B.

GSA’s decision to dispose of the

In
2001,
the
General
Services
Administration (GSA) announced that the land
that made up Badger Plant was available for
disposal. R. 3884. The GSA prepared an
environmental
impact
statement
(EIS),
considering different scenarios involving “low
intensity use,” “low/medium intensity use,” and
“medium intensity use.” R. 2528–30. The EIS says
that the property “is close to Devil’s Lake State
Park, [so] low intensity recreation use would be
most appropriate under this land use. Low
intensity uses would include passive or noninvasive nature based ‘ecotourist’ activities such as
hiking and camping. Biking, horseback riding,
snowmobiling, interpretive trails, and nature
programs would also be included in this land use

-46aclassification.” R. 1175–76. After reviewing the
final EIS, GSA issued a decision confirming that it
had sufficiently analyzed the environmental
impacts of the disposal and would proceed with
disposal of the property. R. 1607–13.
C.

WDNR’s application for the land

In 2004, the Wisconsin Department of
Natural Resources (WDNR) submitted an
application to acquire portions of the property
through the Federal Lands to Parks Program,
which is administered by the National Park
Service (NPS). R. 1614–34 and1640–61. The
application contained what is called a Program of
Utilization (POU), which described WDNR’s
proposed uses for the property:
WDNR will develop and manage the
land at Badger Army Ammunitions
Plant for public recreational purposes.
The property will be classified as a
recreational area, and will include
facilities for hiking, picnicking, primitive
camping, Lake Wisconsin access and
viewing,
savanna
and
grassland
restoration, environmental education
and cultural/historical interpretation. . . .
The specifics for how the property will be
developed and managed will come from a
master planning process WDNR is
required to prepare. However, these are

-47athe types of uses we’d anticipate would
come out of the planning process.
R. 1650–51.
In 2005, NPS sent a letter to GSA approving
WDNR’s application and requesting that the
property be assigned to NPS for conveyance to
WDNR.
D. Transfer of the land to WDNR
From 2009 to 2016, GSA assigned portions
of the land to NPS for disposal, and NPS
subsequently transferred those properties to
WDNR. R. 1973–2007 and 4562–93. Each deed
contained the restriction that the property “shall
be used and maintained exclusively for public park
or public recreation purposes for which it was
conveyed in perpetuity.” The deed also stated that
the POU “may be amended from time to time at
the request of either the Grantor or Grantee, with
the written concurrence of the other party, and
such amendments shall be added to and become a
part of the original application.” R. 1976, 2023,
2544, 2567, 2735, 2762, 4530, and 4565.
E. Master plan
After WDNR began to receive the property,
it initiated the process of preparing a “master
plan” for the recreation area. R. 3881. In

-48aDecember 2011, WDNR completed a “Rapid
Ecological Assessment of the Area” that
documented ecologically important areas, rare
species, and high-quality natural communities. R.
2071. The assessment included the following
information:
The Sauk Prairie Recreation Area
(SPRA) supports numerous rare species.
Thirty-three rare animal species are
known from the SPRA, including four
State Threatened and 29 Special
Concern species. Seven rare plant
species are known from the SPRA,
including two State Endangered (one is
also Federally Threatened) and five
State Threatened species. . . .
Biologists and birders are concerned
about population declines of many
grassland bird species. Since the North
American Breeding Bird Survey (BBS)
began in 1966, grassland birds have
declined more steeply than any other
group of birds in North America and the
Midwest. The SPRA provides extensive
surrogate grassland, shrubland, and
savanna habitat for 97 confirmed or
probable breeding bird species. This is
an impressive list for an area the size of
the SPRA, especially the number and

-49adiversity of grassland and shrubland
birds (21 species).
R. 2070. The assessment identified the prairie
bush-clover (Lespedeza leptostachya) as a
federally listed threatened plant species that had
been documented in the area. R. 2091. However,
the plant had not been observed since 1993 and
the area where it was found is now fenced off. R.
1307–08.
In August 2015, WDNR released a draft
master plan for operation of the recreation area.
R. 3003 and 3021–33. Among other things, the
plan included proposals for dual-sport motorcycle
access, a dog training and dog trialing area
involving the discharge of firearms using blanks,
helicopter training exercises by the Wisconsin
Army National Guard, and unspecified “special
uses.” R. 3003 and 3021–3033. 5 In response to
WDNR’s draft, NPS wrote that several of the
proposed uses were not in the original application.
As a result, WDNR would have to amend the POU
and NPS would have to “consider proposed
changes . . . and evaluate and disclose impacts
from those uses.” R. 3405 and 3407.
5 Dog training is teaching dogs or exercising dogs for
hunting game birds or mammals to improve their hunting
performance. R. 3905. Dog trialing is not separately defined
in the record, but WDNR says that it is an “organized, shortduration competition[] that test[s] dogs’ hunting skills.” Dkt.
64, at 21.

-50aOn November 8, 2016, WDNR issued a
“Draft Master Plan and Final Environmental
Impact Statement.” R. 3862–4103. The revised
plan contained descriptions of the proposed use
and management of the property and some
analysis regarding potential impacts, alternatives,
and public input. R. 3862–4103. The proposed
uses in this version of the plan included off-road
motorcycle events, dog training, and helicopter
training by the Wisconsin National Guard. The
court will discuss each of these uses and their
potential environmental impact in the analysis
section of the opinion.
F.

NPS approval of the plan

On December 1, 2016, NPS determined that
it did not need to prepare an environmental
impact statement (EIS) or an environmental
assessment (EA), relying on a provision in its
handbook that applies to “[c]hanges or
amendments to an approved plan, when such
changes would cause no or only minimal
environmental impact.” R. 2659. In concluding
that neither an EIS nor an EA was needed, NPS
relied on WDNR’s findings in the master plan. R.
4145–57. NPS wrote, “we feel much of the impacts
from the actions listed in the plan will be an
improvement to the natural habitats and any
potential negative impacts such as noise, air
quality, impact to wildlife, will be minor,” and that
“[o]verall,
through
managed
recreational

-51aopportunity and active land management
activities, the overall quality of the natural
environment at the park should improve.” R.
4156–57.
On December 8, 2016, NPS informed WDNR
that once the Wisconsin Natural Resources Board
approved the plan, NPS “will consider the plan to
be an amendment to the Program of Utilization
(POU) contained in the state’s application for the
property and referenced in the deeds which
transferred the property to the state and will
guide the development of the site going forward.”
R. 4181. On December 14, the board approved the
plan, but deleted a provision that would have
allowed high-powered rocket usage on a few days
each year. R 4559–64. At this point, NPS had
transferred all but three parcels to WDNR. R.
3876.
G.

Final deed

On December 15, 2016, NPS executed a
deed that conveyed a 75-acre parcel (Parcel V1) to
WDNR but permitted the Wisconsin Army
National Guard to use the parcel for helicopter
training in accordance with the master plan. R.
4565. (The two other remaining parcels are not at
issue in this case.) The final deed included the
following provision: “[I]f requested by WDNR or by
the Governor of the State of Wisconsin, the
Wisconsin National Guard may enter into an

-52aagreement with WDNR to utilize Parcel V1 for
rotary wing aviation training conducted in a
manner that is consistent with WDNR’s approved
Master Plan for the Property.” Id.
WDNR and the National Guard have
entered into a “memorandum of understanding”
governing helicopter training at the recreation
area. R. 3910–11 and 4162–66. The memorandum
contains a map designating a primary flight path,
R. 4166, as well as flight restrictions, R. 4162–63.
A.

Standing

One of the jurisdictional prerequisites to
filing a lawsuit in federal court is standing to sue
under Article III of the U.S. Constitution. The
doctrine of constitutional standing requires the
plaintiff to show that it has suffered an “injury in
fact” that is “fairly traceable” to defendants’
conduct and capable of being redressed by a
favorable decision from the court. Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560 (1992).
None of the parties discuss the issue of standing,
so it appears that defendants concede that the
Alliance has it. Nevertheless, the court has an
independent obligation to consider the issue.
DeBartolo v. Healthsouth Corp., 569 F.3d 736, 740
(7th Cir. 2009).
“An organization has standing to sue if (1)
at least one of its members would otherwise have

-53astanding; (2) the interests at stake in the litigation
are germane to the organization's purpose; and (3)
neither the claim asserted nor the relief requested
requires an individual member’s participation in
the lawsuit.” Sierra Club v. Franklin Cty. Power of
Ill., LLC, 546 F.3d 918, 924 (7th Cir. 2008). As to
the first requirement, the Alliance has submitted
affidavits from several of its members. Dkts. 50–
56. For example, member Charles Luthin avers
that he “regularly use[s] the [Sauk Prairie State
Recreation Area] for recreational purposes,” such
as hiking and bird watching, and that “the
proposed high-impact uses conflict loudly with” his
“quiet recreation.” Dkt. 54, ¶¶ 9–10. The other
members make similar statements, none of which
defendants challenge. Although the members
could have provided more specific details
regarding how the proposed uses will affect them,
it is reasonable to infer from the affidavits that the
proposed uses will diminish the members’
enjoyment of the recreation area, which is all that
is required for an individual to show an injury in
this context. Am. Bottom Conservancy v. U.S.
Army Corps of Eng’rs, 650 F.3d 652, 658 (7th Cir.
2011) (“[I]t is enough to confer standing that their
pleasure is diminished even if not to the point that
they abandon the site. For that diminution is an
injury.”) (citations omitted). Because it is also
reasonable to infer that the members’ injuries are
fairly traceable to defendants’ conduct and success
in this lawsuit would redress those injuries, the

-54aAlliance has satisfied the first requirement of
organizational standing.
The Alliance satisfies the other two
requirements of organizational standing as well.
The Alliance was formed to protect the Sauk
Prairie State Recreation Area, so the interests at
stake in the litigation are germane to the
organization’s purpose. And the court sees no
reason why the members would need to bring the
claims in this case as individuals rather than
through the Alliance. The court concludes that the
Alliance has constitutional standing to sue.
B.

Standard
of
review
under
Administrative Procedure Act

the

The Alliance contends that defendants have
violated the Federal Property and Administrative
Services Act of 1949 (FPASA) and the National
Environmental Policy Act (NEPA), but the
Alliance does not contend that either statute
creates a private right of action. Rather, the
parties appear to agree that judicial review for
violations of both statutes is provided under the
Administrative Procedure Act. See Milwaukee
Inner-City Congregations for Hope v. Gottlieb, No.
12-cv-556-bbc, 2013 WL 12234624, at *3 (W.D.
Wis.
Jan.
29,
2013)
(“[T]he
National
Environmental Policy Act does not confer a private
right of action at all. Rather, judicial review of
agency action under the National Environmental

-55aPolicy Act is governed by the Administrative
Procedures Act.”); Conservation Law Found. of
New England, Inc. v. Harper, 587 F. Supp. 357,
366–67 (D. Mass. 1984) (“[Plaintiffs] do not have a
private right of action under the FPAS,” but
“Plaintiffs' claims that defendants have failed to
comply with the FPAS may be construed . . . as
arising under the APA.”). An agency decision may
be set aside under the APA if it is “arbitrary,
capricious, an abuse of discretion, or otherwise not
in accordance with law.” 5 U.S.C. § 706(2)(A);
Habitat Educ. Ctr., Inc. v. U.S. Forest Serv., 673
F.3d 518, 525 (7th Cir. 2012).
C.

Federal Property and Administrative
Services Act

“Under
the
Federal
Property
and
Administrative Services Act of 1949 (‘FPASA’), the
Administrator of General Services is entrusted
with the broad task of supervising and directing
the disposition of surplus property, which includes
any excess property not required for the needs of
any federal agency.” Grammatico v. United States,
109 F.3d 1198, 1201 (7th Cir. 1997) (citing 40
U.S.C. § 484(a) and § 472(g)). At issue in this case
is 40 U.S.C. § 550(e), which allows GSA to “assign
to the Secretary of the Interior for disposal surplus
real property . . . that the Secretary recommends
as needed for use as a public park or recreation
area.” The Alliance contends that defendants have
violated FPASA in two ways: (1) defendants

-56aallowed the recreation area to be used for
helicopter training, which is not a recreational use;
(2) defendants’ approval of the area for all of the
disputed uses is inconsistent with the purposes for
which the property was conveyed to the state.
1.

Zone of interests

Another threshold question that the parties
do not address is whether the Alliance’s claims fall
within the “zone of interests” of FPASA, a question
raised in every case brought under the APA. Am.
Fed'n of Gov't Emps., Local 2119 v. Cohen, 171
F.3d 460, 465 (7th Cir. 1999) (“Those seeking
judicial review of administrative actions under the
APA must show that they have . . . an interest
falling within the ‘zone-of-interests’ protected by
the relevant statutes.”). In one of the few judicial
decisions interpreting FPASA, the Court of
Appeals for the First Circuit held that area
residents who objected to the sale of federal land
to an electric utility that planned to build a
nuclear power plant did not fall within FPASA’s
zone of interests. Rhode Island Comm. On Energy
v. Gen. Servs. Admin., 561 F.2d 397, 402 (1st Cir.
1977) (“Nowhere in the FPAS statute or in the
committee reports accompanying its 1949
enactment and 1952 amendments can we discern
any congressional solicitude for the interests of
abutters or nearby residents of real property
which has become excess or surplus.”) (footnote

-57aomitted). The parties do not address this decision
in their briefs.
But Rhode Island may no longer be good
law. In recent years, the Supreme Court has
stated that the zone of interests test “is not meant
to be especially demanding” and must be applied
in light of the rule that the APA makes agency
action presumptively reviewable. Match-E-BeNash-She-Wish Band of Pottawatomi Indians v.
Patchak, 567 U.S. 209, 225 (2012) (internal
quotations omitted). The test is satisfied if the
plaintiff is “arguably” within the zone of interests,
even if there is no evidence of a congressional
purpose to benefit the plaintiff. Id. “The test
forecloses suit only when a plaintiff’s interests are
so marginally related to or inconsistent with the
purposes implicit in the statute that it cannot
reasonably be assumed that Congress intended to
permit the suit.” Id. (internal quotations omitted).
Although Patchak did not involve FPASA,
the case is instructive. The Court held that a
neighboring landowner could use the APA to
challenge a federal agency’s decision to purchase
property because the landowner alleged that the
decision
would
“cause
him
economic,
environmental, and aesthetic harm as a nearby
property owner,” id. at 224, which is similar to the
Alliance’s alleged harm in this case.

-58aIn any event, the zone of interests
requirement is an element of prudential standing,
not constitutional standing, Bennett v. Spear, 520
U.S. 154, 162, (1997), which means that it can be
waived. RK Co. v. See, 622 F.3d 846, 851-52 (7th
Cir. 2010) (“Prudential standing issues are subject
to waiver.”); In re Ray, 597 F.3d 871, 875 (7th Cir.
2010) (“[N]onconstitutional or prudential lack of
standing may be waived by a party that fails to
timely raise the issue.”). “[T]he court may raise an
unpreserved prudential-standing question on its
own, but unlike questions of constitutional
standing, it is not obliged to do so.” Rawoof v.
Texor Petroleum Co., 521 F.3d 750, 757 (7th Cir.
2008). In light of the uncertainty in the law on this
issue and defendants’ failure to raise it, the court
will assume that the Alliance’s claim falls within
FPASA’s zone of interests.6 The court will turn to
the merits of the Alliance’s FPASA claims.
2.

Helicopter training

The Alliance says that helicopter training is
not a recreational use and that § 550(e) prohibits
any portion of the land from being used for a
nonrecreational purpose. Missing from the
Alliance’s briefs is any discussion of how
defendants violated any of FPASA’s requirements.
6 For the same reasons, the court will assume that
the Alliance’s claims under NEPA fall within the zone of
interests of that statute as well.

-59aInstead, the Alliance’s arguments focus on various
other documents in which either the federal or
state government represented that the property
would be used for recreational purposes. But the
Alliance does not explain why any of those
documents would be enforceable under FPASA, so
any argument that relies on these documents is
forfeited.
Section 550(e)(4) is the only part of § 550(e)
that addresses the content of a deed:
Deed of conveyance.--The deed of
conveyance of any surplus real property
disposed of under this subsection-(A) shall provide that all of the property
be used and maintained for the purpose
for which it was conveyed in perpetuity,
and that if the property ceases to be
used or maintained for that purpose, all
or any portion of the property shall, in
its then existing condition, at the option
of the Government, revert to the
Government; and
(B) may contain additional terms,
reservations,
restrictions,
and
conditions the Secretary of the Interior
determines are necessary to safeguard
the interests of the Government.

-60aSection 550(e)(4) does not require the government
to reserve all of the property being transferred for
a particular use. Rather, it says that the deed
must require the property to “be used and
maintained for the purpose for which it was
conveyed in perpetuity.” In this case, it is
undisputed that the deed for the parcel on which
the helicopter training will be performed allows
WDNR to enter into an agreement with the
Wisconsin National Guard for “aviation training.”
R. 4565.7
In any event, the Alliance ignores §
550(e)(4)(B),
which
expressly
allows
the
government to include reservations in the deed
that are “necessary to safeguard the interests of
the Government.” Defendants say that “[t]he
reserved helicopter use in the deed serves the
United States’ defense and safety interest by
ensuring a well-trained state National Guard
which has both a federal and a state mission.” Dkt.
63, at 12 (citing R. 4168). Because the Alliance
does not even respond to this argument in its reply
7 Although the deed also says that the parcel will be
used “exclusively for public park or public recreation
purposes,” R. 4565, the Alliance does not develop an
argument that any inconsistency in the document would
require the court to disregard the provision that allows
helicopter training. Boatmen's Nat. Bank of St. Louis v.
Smith, 835 F.2d 1200, 1203 (7th Cir. 1987) (“Where the
document contains both general and specific provisions
relating to the same subject, the specific provision controls.”).

-61abrief, the court concludes that the Alliance has
failed to show that allowing part of the recreation
area to be used for helicopter training violates
FPASA.
3.

Other challenged uses

The Alliance contends that FPASA prohibits
defendants from approving any uses that were not
identified in the original “program of utilization”
that WDNR submitted with its application for the
land. This contention has two problems. First, the
document the Alliance cites does not prohibit uses
such as dog training or motorcycle events.
Although the document says that WDNR
“anticipate[s]” that the area will include facilities
for activities such as “hiking, picnicking, primitive
camping, Lake Wisconsin access and viewing,
savanna and grassland restoration, environmental
education and cultural/historical interpretation,”
R. 1650, the document also says that “[t]he
specifics for how the property will be developed
and managed will come from a master planning
process WDNR is required to prepare.” R. 1651.
Second, and more important, the Alliance
again fails to explain how FPASA supports the
claim. The Alliance cites the language in §
550(e)(4)(A) that the property must “be used and
maintained for the purpose for which it was
conveyed in perpetuity.” But that language relates
to the requirements of the deed, not the “program

-62aof utilization,” which is not a document discussed
in the statute. And the only limitation cited by the
parties in the deeds is that the property “shall be
used and maintained exclusively for public park or
public recreation purposes.” Because the Alliance
concedes that all of the uses in dispute are
“recreational” (other than the helicopter training,
which is permitted for the reasons discussed
above), those uses are permitted under the deed
and also under § 550(e)(4)(A).
D.

National Environmental Policy Act
1.

Legal standard

The Alliance does not contend that NEPA
prohibited defendants from approving any of the
uses in dispute. Rather, the Alliance’s claim is that
NPS
failed
to
adequately
consider
the
environmental impact that the disputed uses
would have before approving WDNR’s plan. This is
because “NEPA . . . does not mandate particular
results. It simply prescribes the necessary
process.” Envtl. Law & Policy Ctr. v. U.S. Nuclear
Regulatory Comm'n, 470 F.3d 676, 682 (7th Cir.
2006) (citation omitted). The purpose of the law is
to foster public comment and help the agency
make
an
informed
decision
about
the
environmental consequences of its actions. Dep't of
Transp. v. Pub. Citizen, 541 U.S. 752, 768 (2004).
See also Robertson v. Methow Valley Citizens
Council, 490 U.S. 332, 351 (1989) (“NEPA merely

-63aprohibits uninformed—rather
agency action.”).

than

unwise—

NEPA requires a federal agency to prepare
an environmental impact statement (EIS) for all
“proposals for . . . major Federal actions
significantly affecting the quality of the human
environment.” 42 U.S.C. § 4332(2)(C). Obviously,
the agency must determine whether its action will
“significantly” affect the environment before
deciding whether to prepare an EIS and there are
two ways an agency can make that determination.
First, the agency can prepare an “environmental
assessment” (EA), which is “a shorter, rough-cut,
low-budget EIS.” Highway J Citizens Grp. v.
Mineta, 349 F.3d 938, 953 (7th Cir. 2003). Second,
the agency can decide that the action falls within a
“categorical exclusion,” so it does not require
either an EIS or an EA. Habitat Educ. Ctr., Inc. v.
U.S. Forest Serv., 673 F.3d 518, 525 (7th Cir.
2012).
In this case, the parties assume that the
land transfers at issue were “major federal
actions.” The question is whether NPS erred in
concluding that WDNR’s plan for the recreation
area was categorically excluded from the
requirement to prepare an EIS.8
8 WDNR prepared a state version of an EIS, but
defendants do not contend that WDNR’s EIS qualifies as an
EIS under NEPA.

-64aThe statute does not define the term
“categorical exclusion.” There is a definition in the
regulations, but it is somewhat circular:
Categorical exclusion means a category
of actions which do not individually or
cumulatively have a significant effect on
the human environment and which
have been found to have no such effect
in procedures adopted by a Federal
agency in implementation of these
regulations (§ 1507.3) and for which,
therefore, neither an environmental
assessment nor an environmental
impact statement is required. . . . Any
procedures under this section shall
provide for extraordinary circumstances
in which a normally excluded action
may have a significant environmental
effect.
40 C.F.R. § 1508.4. Thus, a categorical exclusion
may apply when an action will not have a
significant environmental impact, which is
essentially the same standard that governs
whether an EIS is required. D. Mandelker, NEPA
Law and Litigation § 7:10 (2017) (“The effect of
this method of defining categorical exclusions is to
apply the same criteria for determining whether
an impact statement is necessary to the
categorical exclusion decision.”).

-65aNPS has its own guidelines, but they do not
provide much more specificity, at least for the
purpose of this case. NPS relies on a categorical
exclusion in its handbook that applies to
“[c]hanges or amendments to an approved plan,
when such changes would cause no or only
minimal environmental impact.” R. 2659. The
parties debate whether the NPS guidelines impose
a stricter standard than the regulation, that is,
whether there is a difference between a
“significant environmental effect” and a more than
“minimal environmental effect.” For the purpose of
this decision, the court will assume that “minimal
environmental effect” is the appropriate standard.
The parties do not cite any cases from this
circuit in which a court considered whether it was
appropriate for an agency to invoke a categorical
exclusion. But both the Supreme Court and the
court of appeals have consistently held that the
APA’s “arbitrary and capricious” standard applies
to alleged NEPA violations in similar contexts.
Dep't of Transp. v. Pub. Citizen, 541 U.S. 752, 763
(2004) (decision to prepare an EA instead of an
EIS); Citizens for Appropriate Rural Roads v.
Foxx, 815 F.3d 1068, 1075 (7th Cir.), cert. denied
sub nom. Citizens for Appropriate Rural Roads,
Inc. v. Foxx, 137 S. Ct. 310 (2016) (decision
whether to supplement EIS).

-66aIn the context of a case in which a plaintiff
challenged an agency’s decision to prepare an EA
instead of an EIS, the court of appeals described
the arbitrary and capricious standard as follows:
[O]ur inquiry is searching and careful
but the ultimate standard of review is a
narrow one. We only must ask whether
the decision was based on a
consideration of the relevant factors and
whether there has been a clear error of
judgment. If an agency considers the
proper factors and makes a factual
determination
on
whether
the
environmental impacts are significant
or not, that decision implicates
substantial agency expertise and is
entitled to deference. In the context of
NEPA, arbitrary and capricious review
prohibits a court from substituting its
judgment for that of the agency as to
the environmental consequences of its
actions. In fact, the only role for a court
in applying the arbitrary and capricious
standard in the NEPA context is to
insure that the agency has taken a hard
look at environmental consequences.
Highway J, 349 F.3d at 952–53 (internal
quotations, citations, and alterations omitted). See
also Motor Vehicle Mfrs. Ass'n of U.S., Inc. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983)

-67a(“[T]he agency must examine the relevant data
and articulate a satisfactory explanation for its
action including a rational connection between the
facts found and the choice made.”) (internal
quotations omitted).
2.

Challenged uses

The Alliance contends that that NPS failed
to adequately consider the environmental impacts
of three types of proposed uses: (1) helicopter
training; (2) off-road motorcycle events; and (3) dog
training. The Alliance also mentions dog trialing
but does not discuss that activity separately from
dog training. And the Alliance does not respond to
WDNR’s contention that dog trialing is not at
issue because it is not a preapproved use under the
master plan and cannot be approved without a
special permit that takes into consider the
environmental impact of the activity. Accordingly,
any challenge to dog trialing—as distinct from dog
training—is forfeited. The court will consider the
other three proposed uses in turn.
NPS acknowledges that it relied primarily
on the findings in WDNR’s master plan to
determine whether a categorical exclusion should
apply. The parties assume that it was not
inappropriate for NPS to do that, so the court will
make the same assumption and consider the
master plan on its own merits.

-68aa.

Appropriate baseline

There is a threshold question regarding how
NPS should have measured any potential impact
of the proposed uses. Defendants say that the
appropriate baseline was the condition of the
environment at the time the use was approved.
The Alliance says that the appropriate baseline is
what the condition of the environment would have
been under the original “program of utilization.”
The Alliance’s logic is that the challenged uses
were not included in the program of utilization
and were added later as an amendment, so the
original proposal should control. The Alliance does
not say in its briefs why the baseline is important,
but presumably the Alliance’s view is that the
original proposal did not allow as many uses
(including helicopter training), so environmental
conditions would have improved under that plan.
As with many of the Alliance’s arguments,
the problem with this logic is that it is not tied to
the statute at issue. NEPA directs the agency to
determine whether its actions will “significantly
affect[] the quality of the human environment.” 42
U.S.C. § 4332(2)(C). The regulation governing
categorical exclusions similarly directs the agency
to consider whether its actions will have “a
significant effect on the human environment.”
Both the statute and the regulation presuppose
that the agency will determine the effect on the
environment as it actually exists.

-69aThe original program of utilization never
took effect, so it had no impact on the
environment. How would NPS determine the
impact of the master plan on a set of conditions
that never occurred? Was NPS supposed to
speculate what the conditions would have been
under the original program of utilization at some
undetermined point in the future and then
speculate as to how the disputed uses would affect
those conditions? The Alliance does not explain
why that would be logical or how it would even be
possible.
The Alliance relies on the language of the
particular categorical exclusion that NPS invoked,
but it provides no support for the Alliance’s view.
The exclusion applies to changes that will have no
more than a minimal environmental impact.
Nothing in the exclusion suggests that the NPS
should engage in a counterfactual exercise
regarding the impact of changes on a set of
ecological conditions that might have existed
under a plan that never took effect.
The Alliance also cites language in the NPS
handbook:
Our environmental analysis will be
focused on the new proposed uses
(primarily active recreation uses) that
are different from the ones in the
original application, as the original

-70apassive uses were previously considered
in the original land disposal for SPRA . .
. . In our environmental reviews, the
NPS typically evaluates the ‘no action’
alternative, meaning the continuation of
current management practices or the
current plan.
R. 3407–08. The Alliance says that the cited
language supports its view, but that would be the
case only if “no action” and “baseline” meant the
same thing. As NPS points out, the handbook
treats the two concepts as distinct: “the no-action
alternative is different than the baseline used for
predicting changes to the conditions of resources.”
R. 2681. According to the handbook, “[t]he current
state of the resources affected serves as the
baseline for predicting changes to the human
environments that could occur if any of the
alternatives under consideration, including the noaction alternative, are implemented.” Id. In
accordance with the statute, regulation, and
handbook, the court concludes that the
appropriate baseline for determining the impact to
the environment is the condition of the
environment at the time NPS approved the
conditions.
b.

Helicopter training

The Alliance objects to helicopter training
on the ground that it will generate substantial

-71anoise and wind. NPS says that the helicopter
training “was properly excluded from the analysis
of environmental impacts” because the training
was a “right reserved in the deed [to Parcel V1]
and therefore the Park Service did not have
jurisdiction to review and concur in it.” Dkt. 65, at
21. The court would be inclined to agree. But even
setting that point aside, the Alliance’s challenge to
the helicopter training fails because the training
has been occurring for decades. Although the
original proposal excluded helicopter training as a
use, as noted above, the original proposal never
went into effect, so that training was already
taking place when WDNR prepared the master
plan. Whatever effect the helicopters have on the
environment has already occurred.
The Alliance points to no evidence that the
amount of training is likely to increase or that the
response of the area wildlife to the helicopters is
likely to change in any way. Also, helicopter
training is limited, as to area (take off and landing
are restricted to one parcel of land that is closed to
the public and pilots must follow a restricted flight
path that “avoid[s] over flight of people and
livestock below 500 feet”), timing (flights are not
permitted during deer-hunting season, on the
weekends or before 10 a.m.), and volume (the
number of flights is limited “to reduce the noise
signature to the area”). R. 3910 and 4162–63. The
court sees no reason that NPS should have
concluded that continuing the use of the

-72ahelicopters will have any additional impact on the
environment.
c.

Off-road motorcycle events

The Alliance says that that NPS failed to
adequately
consider
several
potential
environmental effects of the off-road motorcycle
events: (1) the noise caused by the motorcycle
engines; (2) pollution from emissions; (3) dust
generated on the trails; and (4) harm to local
wildlife, especially grassland birds in the area
where some of the trails are planned. The last
issue is related to the first three because the
Alliance’s allegations about harm to wildlife are
based primarily on their allegations about the
other issues.
In arguing that the environmental effects
from the motorcycles will be more than minimal,
the Alliance relies primarily on language in the
master plan itself:


Sound level on the trails may be “higher” or
even “considerably higher” than the sound
level on the roads in and around the park.
R. 4008 and 4015; the sound “may cause
displacement, nest desertion [and] breeding
failure” and “may also result in animals
being displaced for longer periods than just
the days that the motorcycles are using the
repurposed trails,” R. 4015;

-73a

“dust is likely to be created during dualsport motorcycle events,” R. 4006;



“exhaust from the motorcycles could
impact sensitive species,” R. 4015.

The problem with relying on the master
plan is that, after acknowledging these potential
issues, WDNR identified numerous restrictions
that it is placing on the use of the motorcycles to
minimize any impact. The motorcycles will be
permitted in the area only six days a year and on
no more than two consecutive days. Only two of
the six days may fall between April 15 and July
31, which is the nesting period for birds. The
motorcycles are limited to 50 percent of the trails
designated for bicycling or horse riding. On the
days when motorcycles are permitted, they will be
restricted to the hours between 9:00 a.m. and 4:00
p.m. Participation is limited to 100 riders. All
motorcycles will have to undergo noise testing,
with a limit of 96 decibels. In addition to these
required limitations, WDNR reserves the right to
set additional restrictions on particular events to
prevent any impact to the recreation area. R.
4014–15.
WDNR also provided comparisons for
context. For example, it estimated that the
motorcycles will generate emissions from
approximately 100 gallons of gas on the days that

-74athey are permitted. This compares to emissions
from an estimated 1,660 gallons of gas from
vehicles driving on roads surrounding the
recreation area. R. 4006. As a result, WDNR
estimated that the motorcycles’ effect on air
quality will be “minimal.” Id.
As to the effect on grassland birds in particular,
WDNR noted that most of the “high-priority”
habitat for grassland birds has been transferred to
the Ho-Chunk Nation and is not part of the
recreation area. R. 2096 and 3877. Of the habitat
that remains in the recreation area, some of it
“was heavily disturbed during plant operations
and was used primarily in the production of rocket
propellant and related materials. Hundreds of
structures and dozens of miles of roads were
constructed [t]here. Much of the topography and
soils were altered during construction and
deconstruction (e.g., contaminated ditches were
dug out and filled).” R. 3948. WDNR’s goal is to
improve and further restore the habitat to make it
more hospitable for grassland birds by controlling
woody invasive species and establishing native
grasslands. Id. Although there are some trails in
the habitat, they are placed “around the exterior of
[the habitat] to create an interior core of
contiguous habitat for grassland birds.” Dkt. 64, at
18 (citing R. 3948). As a result of its restoration
efforts, WDNR anticipates that its plan will lead to
“substantial
and
long-term
increases
in

-75apopulations of native species.” R. 3873 (emphasis
added).
The Alliance does not respond to WDNR’s
argument about the grassland birds in its reply
brief, so the court assumes that the Alliance has
abandoned its argument on that issue. The
Alliance does challenge the view that the
restrictions WDNR has imposed will be sufficient
to prevent adverse environmental impacts. The
Alliance’s primary argument is that defendants
have not adequately explained how the restrictions
will prevent adverse environmental impact.
The court disagrees for two reasons. First,
WDNR did provide some data in the master plan
to support its conclusions. For example, the master
plan discusses research related to the effect that
motorized traffic can have on the number and
diversity of species in the area. R. 4014. The
research showed a “correlation between the
volume of traffic and the level of impact.” Id. The
plan cites data from the Bong State Recreation
Area, which allows ATV and off-road motorcycle
riding. According to that data, there did not
“appear to be a sizeable reduction in the number of
species or number of birds in the area where
motorized recreation is allowed compared to other
areas of the property. Rather, the distribution of
birds appears more influenced by the type and
quality of habitats present.” Id. This data supports
WDNR’s
conclusion
that
limited
off-road

-76amotorcycle events will have no more than a
minimal effect on the environment.
Second, “inherent in NEPA and its
implementing regulations is a ‘rule of reason,’
which ensures that agencies determine whether
and to what extent to prepare an EIS based on the
usefulness of any new potential information to the
decisionmaking process. Where the preparation of
an EIS would serve ‘no purpose’ in light of NEPA's
regulatory scheme as a whole, no rule of reason
worthy of that title would require an agency to
prepare an EIS.” Pub. Citizen, 541 U.S. at 767–68
(citations omitted). In other words, both federal
agencies and courts reviewing agency decisions
under NEPA must take a pragmatic approach and
consider the likelihood that requiring the agency
to go through the additional time, effort, and
expense of collecting more data will lead to useful
information. River Rd. All. v. Corps of Eng’rs of
United States Army, 764 F.2d 445, 449 (7th Cir.
1985) (“[T]he purpose of an environmental
assessment is to determine whether there is
enough likelihood of significant environmental
consequences to justify the time and expense of
preparing an environmental impact statement.”).
Courts must “take care to distinguish between
claimed deficiencies . . . that are ‘merely flyspecks’
and those that are ‘significant enough to defeat the
goals of informed decisionmaking and informed
public comment.’” Habitat Educ. Ctr., 673 F.3d at
528 (quoting Utahns for Better Transp. v. U.S.

-77aDep't of Transp., 305 F.3d 1152, 1163 (10th Cir.
2002)).
In the context of categorical exclusions in
particular, courts have held that “[d]ocumentation
of reliance on a categorical exclusion need not be
detailed or lengthy. It need only be long enough to
indicate to a reviewing court that the agency
indeed considered whether or not a categorical
exclusion applied and concluded that it did.”
Wilderness Watch & Pub. Emps. for Envtl.
Responsibility v. Mainella, 375 F.3d 1085, 1095
(11th Cir. 2004). A more burdensome requirement
would defeat the purpose of categorical exclusions,
which is “to streamline procedures and reduce
paperwork and delay.” Id.
The Alliance is correct that defendants did
not cite any studies that considered the effect that
dust generated by the motorcycles would have on
the environment. But at the same time, the
Alliance has not provided any basis for believing
that it will have a harmful effect. WDNR has
placed such significant restrictions on the use of
motorcycles that it is not unreasonable—in the
absence of evidence to the contrary—to find that
any environmental effects will be minimal. Even
the authority that the Alliance cites says that a
plaintiff must show that there are “substantial
questions whether a project may have a significant
effect on the environment” to successfully
challenge an agency’s invocation of a categorical

-78aexclusion. Anderson v. Evans, 314 F.3d 1006, 1017
(9th Cir. 2002). The Alliance has not shown that.
Even if the court assumes that the master plan
suggests that the motorcycles will have some
adverse impact on the environment, that is not the
standard. It was not arbitrary and capricious for
NPS to conclude that there would be no more than
minimal effects on the environment.
For the sake of completeness, the court will
address one other issue that the Alliance raises in
its briefs regarding off-road motorcycle events. The
Alliance says that it was not reasonable for WDNR
to rely on data for automobile emissions to support
a conclusion that emissions from dual-sport
motorcycles would not have more than a minimal
effect on air quality. Although it is true that
WDNR did not cite data showing “what pollutants
are emitted by dual-sport motorcycles,” Dkt. 48, at
33, the Alliance does not allege that the pollutants
are any different from automobiles and it provides
no grounds for inferring that 100 dual-sport
motorcycles will have any greater effect on the
environment than the more than 10,000 vehicles
(which may include dual-sport motorcycles) that
pass by the recreation area each day. R. 4006.
d.

Dog training

One portion of the recreation area will be
designated as a dog training ground. R. 3905. The
Alliance does not contend that the dogs themselves

-79awill have any adverse environmental effects.
Instead, the Alliance focuses on the discharge of
firearms (using blanks) that may occur during the
training, alleging that the noise could disrupt
breeding of animals in the area.
NPS’s conclusion that the dog training
would not have more than a minimal impact on
the environment was not arbitrary and capricious.
First, dog training is limited to a 72-acre portion of
the recreation area, which covers 3,385 acres. R.
3905. That in itself substantially limits the impact
that dog training might have on wildlife in the
recreation area. The Alliance does not identify any
sensitive species that are concentrated in the two
percent of the recreation area that will allow dog
training.
Second, the Alliance does not challenge
various findings in the master plan that support
NPS’s conclusion: (1) based on WDNR’s experience
with 50 other sites in the state that allow dog
training, WDNR anticipates that “the use level of
at any given time at training grounds” will be
“low” because “people prefer to train their dogs
with few distractions,” R. 4023; (2) the discharge
of firearms during dog training will be
“occasional,” R. 4018; (3) the dog training area
abuts a highway, R. 4094, which generates its own
noise; and (4) the effect of firearms used in
training will be “similar to the impacts that occur
from hunting.” R. 4018.

-80aThe last finding is particularly noteworthy.
Hunting is also permitted in the recreation area,
R. 3903–04, and the Alliance is not challenging
that use. In fact, the Alliance classifies hunting as
“low-impact recreation.” Dkt. 48, at 17. The
Alliance fails to explain why the occasional
discharge of firearms is “low-impact” in the context
of hunting but harmful in the context of dog
training.
The only evidence the Alliance cites in favor
of a conclusion that dog training will have an
adverse environmental impact is an “expert sound
study” the Alliance submitted that concluded that
a rifle range would have “immediate adverse
impacts on current breeding populations of vireos,
meadowlarks, grosbeaks, warblers, and grassland
sparrows, and will prohibit any re-establishment
of former breeding populations of upland
sandpipers.” R. 3207. But the reasons why the
study is not probative are obvious. There will be no
rifle range at the recreation area and the Alliance
provides no basis for concluding that effects of a
shooting range would be similar to the effects of
dog training. The study itself relies on a view that
“rifle ranges are traditionally highly trafficked
sites in Wisconsin,” R. 3213, which alone
distinguishes a range from WDNR’s description of
dog training areas in the state. Particularly
because the Alliance does not even attempt to
challenge the finding that dog training and
hunting have similar effects on the environment,

-81athe study does not render the NPS’s decision
arbitrary and capricious.
E.

Conclusion

The Alliance has failed to show either that:
(1) NPS lacked authority under FPASA to approve
helicopter training, dual-sport motorcycle events,
and dog training and trialing at the Sauk Prairie
State Recreation Area; or (2) it was arbitrary and
capricious for NPS to decide that an EIS was not
needed. Accordingly, the court will grant
defendants’ motion for summary judgment.
ORDER
IT IS ORDERED that:
1.

Defendants’ motion for summary judgment,
Dkt. 61, is GRANTED and plaintiff Sauk
Prairie Conservation Alliance’s motion for
summary judgment, Dkt. 47, is DENIED.

2.

The clerk of court is directed to enter
judgment in favor of defendants and close
this case.

-82aEntered May 3, 2018.
BY THE COURT:
/s/
_____________________________
JAMES D. PETERSON
District Judge

-83aAPPENDIX C
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WISCONSIN
SAUK PRAIRIE CONSERVATION ALLIANCE,
Plaintiff,
v.

Case No. 17cv-35-jdp

U.S. DEPARTMENT OF THE INTERIOR,
SALLY JEWELL, NATIONAL PARK SERVICE,
MICHAEL REYNOLDS, U.S. GENERAL
SERVICES ADMINISTRATION, and DENISE
TURNER ROTH,
Defendants.
v.
STATE OF WISCONSIN,
Intervenor Defendant.
_______________________________________________
ORDER
_______________________________________________
This suit arises from a dispute over the use
of the Sauk Prairie State Recreation Area (the
Area), where the Badger Army Ammunition Plant
used to be. According to plaintiff Sauk Prairie
Conservation Alliance, the federal government
gave the land to the Wisconsin Department of
National Resources on the condition that it be

-84areserved for conservation, education, and lowimpact recreational use such as hiking. But in
December 2016, the WDNR approved high-impact
uses, including motorcycle racing, helicopter flight
training by the Wisconsin Army National Guard,
hunting dog training, and paintballing. According
to the complaint filed in January 2017, these highimpact uses violate the terms of the transfer to the
state, and the defendants, federal agencies and
administrators, violate federal law by allowing
them. The Alliance wants the high-impact uses
stopped.
It’s five months after the filing of the
complaint, and the Alliance now moves for a
preliminary injunction enjoining defendant the
National Park Service and intervenor defendant
the State of Wisconsin from allowing three of the
high-impact uses: (1) off-road motorized vehicles;
(2) increased gun use; and (3) helicopter training
by the Wisconsin Army National Guard in the
Area. Dkt. 19. The Alliance says that it did not
move for preliminary injunctive relief sooner,
because it had filed a similar motion in state court.
But the state court denied that motion, and the
Wisconsin Court of Appeals denied the request for
interlocutory appeal. So the Alliance wants to try
again in this court, and it asks for expedited
briefing to avoid irreparable harm to nesting birds
in the area during the summer breeding season.
Because the Alliance has not shown that it is
likely to suffer irreparable harm before this case

-85acan be decided on the merits, the court will deny
its motion without need for a response from
defendants.
The court will assume here that the Alliance
can make the requisite showing of likely success
on the merits. But to obtain preliminary injunctive
relief, the Alliance must also demonstrate the lack
of an adequate remedy at law and irreparable
harm absent the injunction. Promatek Indus., Ltd.
v. Equitrac Corp., 300 F.3d 808, 811 (7th Cir.
2002). Environmental injury may be irreparable,
but a preliminary injunction is warranted only if
the injury is sufficiently likely and permanent. See
Amoco Prod. Co. v. Village of Gambell, 480 U.S.
531, 545 (1987). The parties’ motions for summary
judgment will be fully briefed by December 2017,
and given the nature of the claims here, it is
reasonably likely that those motions will resolve
the case. Accordingly, the Alliance must
demonstrate that irreparable harm is sufficiently
likely to occur before spring 2018, when the court
will decide the case on the merits.
The Alliance explains that the Area is home
to 33 rare animal species and 97 breeding bird
species. It contends that noise and exhaust from
motorized vehicles “may cause displacement, nest
desertion, [and] breeding failure” to some native
species, and that the vehicles could compact and
erode the soil and hit some slow-moving animals.
Dkt. 21, at 26. Firearm discharge “may disturb

-86awildlife and cause wildlife to flush or exhibit
avoidance behaviors.” Id. at 28. Helicopter flights
may disturb “geese and nesting bald eagles” and
“generate considerable wind and dust.” Id. at 29.
And visitor traffic may increase trash and attract
predators such as raccoons, killing endangered
grassland birds by “trampling or eating nests on
the ground.” Id. at 32. The Alliance explains that
the harm to breeding birds is more pronounced
during the nesting season, which runs from late
May through late July. “Any disturbance within
that time frame, even for just a few days, would
prove significantly detrimental to the likelihood of
breeding success.” Id. at 33.
The Alliance has made a good showing that
the contested high-impact uses will disrupt
wildlife in the Area, including some vulnerable
species. But there are fatal flaws with the
Alliance’s motion.
First, the Alliance has not shown that a
preliminary injunction would actually prevent the
alleged environmental harm. The Alliance focuses
on the disruption of the current nesting season,
which may reduce the breeding success of some
species. But even on an expedited briefing
schedule, the court would not be able to issue an
injunction before the end of the nesting season in
July.

-87aSecond, the Alliance does not explain why
enjoining the three specific activities will prevent
the negative environmental impact. One expert
explains that gunfire has “severe effects on bird
populations.” Id. at 30. But the Alliance does not
request a total ban on gun use, only the increased
gun use connected with dog training, leaving
people free to continue to hunt in the Area.
Another expert explains that some birds are
“vulnerable to predation and nest disturbance by
dogs.” Id. at 29. But the Alliance does not request
a ban on dogs, only the cessation of hunting dog
training.
Third, and most fundamentally, the Alliance
has not shown that the wildlife disruptions and
resulting
environmental
harm
would
be
permanent. The Alliance does not explain how a
few more months of high-impact activities in the
Area will cause harm that would not be
remediated if and when the offending activities
cease. After all, the Area was once home to a
munitions plant, and wildlife returned to the Area
after the plant was decommissioned and the Army
cleaned up the site.
The Alliance has not shown that it will
likely suffer irreparable harm before its case is
decided on the merits. The court will deny its
motion for a preliminary injunction without need
for a response from defendants.

-88aORDER
IT IS ORDERED that plaintiff Sauk Prairie
Conservation Alliance’s motion for preliminary
injunction, Dkt. 19, is DENIED.
Entered June 26, 2017.
BY THE COURT:
/s/
__________________________
JAMES D. PETERSON
District Judge

